<html>
<title> - [H.A.S.C. No. 113-58] THE U.S. PRESENCE IN AFGHANISTAN POST-2014: VIEWS OF OUTSIDE EXPERTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-58]

  THE U.S. PRESENCE IN AFGHANISTAN POST-2014: VIEWS OF OUTSIDE EXPERTS

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 19, 2013



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                      U.S. GOVERNMENT PRINTING OFFICE
  82-964                   WASHINGTON : 2014
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bfd8cfd0ffdccacccbd7dad3cf91dcd0d291">[email&#160;protected]</a>  










                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           ROBERT E. ANDREWS, New Jersey
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVID LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
DUNCAN HUNTER, California                Georgia
JOHN FLEMING, Louisiana              COLLEEN W. HANABUSA, Hawaii
MIKE COFFMAN, Colorado               JACKIE SPEIER, California
E. SCOTT RIGELL, Virginia            RON BARBER, Arizona
CHRISTOPHER P. GIBSON, New York      ANDRE CARSON, Indiana
VICKY HARTZLER, Missouri             CAROL SHEA-PORTER, New Hampshire
JOSEPH J. HECK, Nevada               DANIEL B. MAFFEI, New York
JON RUNYAN, New Jersey               DEREK KILMER, Washington
AUSTIN SCOTT, Georgia                JOAQUIN CASTRO, Texas
STEVEN M. PALAZZO, Mississippi       TAMMY DUCKWORTH, Illinois
MARTHA ROBY, Alabama                 SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                Michael Casey, Professional Staff Member
                           Aaron Falk, Clerk





















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Thursday, September 19, 2013, The U.S. Presence in Afghanistan 
  Post-2014: Views of Outside Experts............................     1

Appendix:

Thursday, September 19, 2013.....................................    39
                              ----------                              

                      THURSDAY, SEPTEMBER 19, 2013
  THE U.S. PRESENCE IN AFGHANISTAN POST-2014: VIEWS OF OUTSIDE EXPERTS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Flournoy, Hon. Michele, Former Under Secretary of Defense for 
  Policy, U.S. Department of Defense.............................     3
Keane, GEN Jack, USA (Ret.), Former Vice Chief of Staff, U.S. 
  Army...........................................................     6
Lockhart, Clare, Director, Institute for State Effectiveness.....    10
Neumann, Ambassador Ronald E., President, American Academy of 
  Diplomacy......................................................     8

                                APPENDIX

Prepared Statements:

    Flournoy, Hon. Michele.......................................    47
    Keane, GEN Jack..............................................    60
    Lockhart, Clare..............................................    85
    McKeon, Hon. Howard P. ``Buck''..............................    43
    Neumann, Ambassador Ronald E.................................    72
    Smith, Hon. Adam.............................................    45

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Speier...................................................   101




  THE U.S. PRESENCE IN AFGHANISTAN POST-2014: VIEWS OF OUTSIDE EXPERTS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                      Washington, DC, Thursday, September 19, 2013.
    The committee met, pursuant to call, at 10:04 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order. Good 
morning, ladies and gentlemen, the House Armed Services 
Committee meets to receive testimony from outside experts on 
the United States presence in Afghanistan post-2014.
    Today we have with us Ms. Michele Flournoy, General Jack 
Keane, Ambassador Ronald Neumann and Ms. Clare Lockhart, all 
experts on the subject from different areas. We are really 
appreciative of having you here today, thank you very much.
    A discussion of a post-2014 presence in Afghanistan should 
start with a reminder of why the United States went there in 
the first place. The most lethal and complex terrorist attack 
in U.S. history was plotted and perpetrated by Al Qaeda in 
Afghanistan. The United States continues to have a vital 
interest in making sure that never happens again and the Afghan 
government can secure their own country.
    It has been a long fight. The United States has committed a 
wealth of resources, both blood and treasure, to preserve U.S. 
vital national security interests. The question before us is 
whether we should continue to commit resources after 2014. And 
if so, what level of resources is sufficient to minimize the 
risk that Afghanistan could be used again as a platform for 
terrorist attacks against the United States and risk to the 
remaining troops that we leave behind.
    This hearing is timely because in the near future the 
President will order additional troop withdrawals and announce 
the United States post-2014 mission set and military posture in 
Afghanistan. We have received mixed messages from the White 
House about the President's commitment to a post-2014 military 
presence. Many of us have traveled into theater and met with 
our commanders. We know there is much at stake, but our 
witnesses have significant expertise in these matters, and 
their views will help inform our thinking on the matter.
    I, for one, am not advocating for a never-ending combat 
mission in Afghanistan. In fact, we have turned over the 
fighting at this point to the Afghans. But as recent events 
have made clear, the President must ensure that our interests 
are secure after we leave. I believe that requires a credible 
residual presence to train, advise and assist the ANSF [Afghan 
National Security Forces] and counterterrorism operations. We 
owe nothing less to the victims on 9/11, the U.S. troops and 
their families, who have served and sacrificed, not to mention 
our sons and daughters who will have to return if we get this 
wrong, and our NATO [North Atlantic Treaty Organization] allies 
and those who have been working and fighting side by side with 
us. The simple justice that comes from that principled position 
can not be overstated. I look forward to your testimony and 
your insights here today.
    Ranking Member Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 43.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    And thanks to our very distinguished panel. I look forward 
to your comments and insights and answers to our questions.
    I agree completely with the chairman, I think the mission 
in Afghanistan has always been very, very clear. After 9/11, we 
want to make sure that Al Qaeda, the Taliban, anyone who 
threatens us here in the West does not have a safe haven in 
Afghanistan. And to do that, regrettably, we had to face the 
challenge of building a sufficiently strong government in 
Afghanistan to make sure that doesn't happen. And that was a 
significant challenge after decades of war, very low literacy 
rate, very low economic position. I think we have done 
admirable work in cooperation with Afghanistan and our NATO and 
other partners to get there.
    Now, it is time, the difficult time, to make that 
transition, to transition responsibility over to the ANSF onto 
the Afghan people. They ultimately have to run their country; 
we can't do it from the outside and shouldn't do it. I think an 
enormous amount of progress has been made; that the sacrifices 
that our men and women who serve us both in the military and in 
the many civilian jobs as well, that have made to get us to 
this point is something we should all be very proud of and 
never forget. Now we want to make sure that we make that 
transition in an effective way.
    And progress has already been made. I was there just a few 
weeks ago with Congressman Hunter. I was very, very impressed 
with the progress that the ANSF has made. It will be a very 
difficult transition, but we have come a very, very long way. I 
think there is no question that we have a commitment to a post-
2014 presence. The challenge, of course--and I am interested in 
hearing all the panelists' comments on this--is the bilateral 
security agreement. We have to get that agreement with 
Afghanistan to maintain the type of presence that we want. I 
think people are cautiously optimistic that we can get there, 
but that is an absolute necessity.
    Then, of course, the next big challenge is the transition--
the other transition from President Karzai to whoever the next 
president is going to be. Making sure we that have successful 
elections in April 2014 in Afghanistan is critical. Now those 
two things--getting a bilateral security agreement, having 
successful free and fair elections in Afghanistan 2014--are the 
two biggest blows that we can strike against the Taliban in the 
next 8 months. If that sort of legitimacy can be shown in the 
Afghan government, if we can have an ongoing relationship with 
Afghanistan and a post-2014 presence guaranteed, that will 
undermine many of the central arguments that the Taliban are 
making going forward.
    So I look forward to your testimony. I think this is a 
very, very critical time in Afghanistan. The world and the 
country has been distracted to some degree by Syria, Egypt and 
other problems, but Afghanistan is still the one place in the 
world where we have a substantial true presence and where the 
U.S. is in fact at war. So getting this policy right, I think, 
is one of the most important national security challenges we 
face.
    I look forward to your help today in getting us to that 
point.
    I yield back, thank you.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 45.]
    The Chairman. Thank you.
    Secretary Flournoy.

 STATEMENT OF HON. MICHELE FLOURNOY, FORMER UNDER SECRETARY OF 
         DEFENSE FOR POLICY, U.S. DEPARTMENT OF DEFENSE

    Ms. Flournoy. Chairman McKeon, Ranking Member Smith, 
distinguished members of the committee, thank you very much for 
inviting me back to speak before this committee and this time 
in a private capacity, but I am honored to be here, especially 
to talk about such an important topic.
    I believe the United States can achieve its strategic 
objectives in Afghanistan if we maintain and adequately 
resource our current policy course and if our Afghan partners 
do their part. This judgment is based on the impressive 
progress of the Afghan security forces, the significant strides 
in areas from health, to education, to agriculture, and the 
promising next generation of Afghan leaders who are poised to 
gain greater influence over their country's future.
    However, the United States and our international partners 
would risk snatching defeat from the jaws of something that 
could still resemble victory if, due to frustration with 
President Karzai or our own internal budgetary pressures, we 
were to accelerate our disengagement between now and 2014 or 
under-resource our commitment to Afghanistan after 2014.
    It is important, I believe imperative, that Washington and 
Kabul clarify and solidify their commitment to an enduring 
partnership as soon as possible. If the United States were to 
announce its intended size and missions of the U.S. forces plan 
for post-2014 period, it would greatly reduce Afghan fears of 
abandonment and put pressure on the Afghan government to agree 
to an acceptable bilateral security agreement. It would also 
greatly reduce incentives for hedging behavior in Afghanistan 
and Pakistan and contribute to a very constructive atmosphere 
for the campaigns leading up to the crucial April 2014 
presidential election.
    In my written testimony, I argue that Afghanistan is not a 
lost cause, that the United States can still achieve its core 
goal of preventing Afghanistan from ever again reverting to 
being a safe haven for Al Qaeda and its affiliates. So in that 
context, now is the time to lock in hard-fought gains, not cut 
our losses.
    Looking at the security situation, although it is true the 
Taliban insurgency remains resilient, particularly in the east 
and south of the country, and though it does retain sanctuary 
in Pakistan, its momentum on the ground in Afghanistan has 
stalled. The insurgency is still capable of some high-profile 
suicide bombing, small-scale attacks, intimidation at the local 
level, but it has not succeeded in winning over Afghan hearts 
and minds or expanding its control and influence in the 
country's major populated areas. It no longer has the strength 
to overthrow or threaten the Afghan government. Indeed, the 
greatest threat to the Afghan government today is not the 
insurgency but the government itself; corruption, the risk that 
power brokers could seek to rig the coming elections.
    Perhaps the most important factor in this security progress 
has been the development of the ANSF, especially the Afghan 
National Army, which has been frankly under-reported in the 
Western press. They have made serious strides in taking the 
lead for the country's security in the last half decade or so. 
Afghan forces, as you know, are now responsible for the 
security of the country nationwide. Almost all, upwards of 95 
percent, of military operations in the country are now Afghan 
led, with the vast majority of those being conducted 
independent of ISAF [International Security Assistance Force] 
help. ANSF personnel are now taking most--almost all of the 
casualties, not ISAF. Eighty-five percent of their training 
programs are Afghan led. There has been significant success in 
establishing control over key cities, significant lines of 
communication and so forth. And Afghan units are becoming 
increasingly proficient in countering IEDs [improvised 
explosive devices].
    It is true that logistic support remains a huge challenge 
for Afghans, and that will be an ongoing project, but there has 
been progress there as well. In the south, for example, which I 
visited late last spring, Afghan units have been resupplying 
themselves without significant ISAF help since last December. 
ANSF special operations forces have achieved very high level of 
competence and are increasingly capable of conducting 
sophisticated special operations. ANSF still needs help in 
important areas, from logistics to intelligence, surveillance, 
reconnaissance, air support, artillery and institutional 
capacity building, but there is, as I said, substantial 
progress.
    The most important thing I saw my last trip there was 
Afghan forces, different elements really starting to work 
together, coming to one another's aid when necessary, really 
operationalizing what I would call a layered security concept. 
In my written testimony, I also address the political 
situation, especially the importance of the 2014 presidential 
elections as a make-or-break event. And I also talk about what 
the U.S. and international community can do to help.
    But in the interest of time, I would like to focus the 
remainder of my remarks on the importance of clarifying the 
U.S. commitment to Afghanistan post-2014 and what our so-called 
enduring presence should look like. While actual deployment of 
any such force would, of course, be contingent on including an 
appropriate bilateral security agreement, clarifying the U.S. 
commitment now would make it clear to Afghans that only their 
own government's reluctance stands in the way of firming up our 
partnership. Given Afghanistan's historical fear of 
abandonment, the impact of such a clear American commitment of 
intent would be both powerful and positive. It would also help 
our NATO allies to firm up their own plans and contributions.
    This doesn't mean that the U.S. should rush to an agreement 
or show impatience to conclude one, as that would potentially 
weaken our negotiating position. But there is absolutely no 
need to be ambiguous about something that would be so very 
clearly in the United States national security interests if our 
Afghan partners do their part.
    As for what an enduring force should look like, the United 
States needs several things as a matter of prudence. First, 
there needs to be enough force to advise and assist the ANSF 
effectively, including geographic distribution to cover the ANA 
[Afghan National Army] corps in Kabul and the four corners of 
the country, north, south, east, west, and capacity, when 
necessary, in extremis to go below the Afghan corps level with 
mobile teams to support Afghan brigades in pre-operational 
preparations should problems develop.
    Second, in the country's north and west in particular, it 
is critical that we provide enough enablers to support key 
allies, like the Germans and the Italians, to actually stay in 
the game and to contribute substantial forces.
    Third, the United States needs some counterterrorism 
capabilities in country for strikes within Afghanistan to keep 
pressure on Al Qaeda and the insurgents and also along the 
border.
    Finally, for 2 or 3 years after 2014, we may need an 
additional force package of several thousand personnel to help 
the Afghans build out their Air Force, their special operations 
forces and certain enablers in the medical realm, counter-IED 
capability, and intelligence collection.
    Now to achieve this, the United States and its NATO allies 
should deploy an enduring force size and shape for these tasks. 
It is not my purpose here today to recommend a specific number. 
I think of the range of numbers that has been reported--9,000 
to 10,000 for the U.S.; 12,000 to 15,000 overall, including 
NATO contributions of, say, 3,000 to 6,000 allied troops. These 
are all within the ballpark of what would be acceptable, and I 
look forward to hearing about General Dunford's recommendation 
this fall.
    In conclusion, despite the very near-term challenges that 
Afghanistan faces, ranging from security, to corruption, to 
narcotics, and difficult neighbors, I remain fundamentally 
optimistic about Afghanistan's mid- to long-term future. True, 
it will remain one the poorest countries and most corrupt 
countries in the world for years to come. But the United States 
and its partners, who have sacrificed so much, we have a chance 
to ensure that Afghanistan does not return to being a safe 
haven for international terrorists, that it has the opportunity 
to stay on a path toward greater stability, human and economic 
development. Compared to what we have already invested in blood 
and treasure, the cost associated with sustaining this future 
course seems to me to be a very wise investment.
    [The prepared statement of Ms. Flournoy can be found in the 
Appendix on page 47.]
    The Chairman. Thank you very much.
    General Keane.

 STATEMENT OF GEN JACK KEANE, USA (RET.), FORMER VICE CHIEF OF 
                        STAFF, U.S. ARMY

    General Keane. Chairman McKeon, Ranking Minority Smith, 
distinguished members of the committee, thank you also for 
allowing me to testify today on a critical subject, such as the 
presence in Afghanistan post-2014. I am honored to be here with 
such a distinguished panel, many of whom I have known for 
years.
    I want to associate myself with what Secretary Flournoy has 
just said in her remarks. I agree with just about everything 
she said. And also I think she is absolutely right that sooner 
rather than later in making a commitment to the Afghans in 
terms of a bilateral security agreement is really in our 
interest and certainly in the interest of the Afghans.
    Afghanistan is rapidly moving toward its most critical 
milestone since 2001 when the Taliban were deposed. As 2014 
approaches and Afghanistan participates in a political, 
economic and security transition, it is U.S. and Afghanistan 
written policy now that both countries will maintain a long-
term strategic relationship, which is mutually beneficial.
    I am reminded we had a similar agreement with Iraq, titled 
the Strategic Framework Agreement, which in my judgment, we 
have not honored. Indeed, we have pulled away from Iraq, 
allowing Iran to gain influence and encouraging the Al Qaeda to 
reassert itself. The United States cannot make this mistake 
again in Afghanistan. Not only is U.S. military presence 
required but a determined, aggressive diplomatic and political 
engagement is needed for years to come. It took multiple 
generations after the Korean War for South Korea to transition 
from a Third World nation run by military dictators to the 
world's 12th largest economy and a flourishing democracy.
    U.S. and international community presence in Afghanistan is 
vital to its future success and for overall stability in the 
region. After 2014, there will have been national elections in 
Afghanistan. While there are no guarantees, a relatively fair 
and open election that reflects the people's choices and 
results in an improved national government will be a 
significant step forward in the political development of 
Afghanistan. As such, it will positively impact the confidence 
of the Afghan people and the international community at large 
in the Afghan political process. On the contrary, if the 
election is perceived to be corrupt and basically unfair, it 
will be a major setback, which will adversely impact the U.S. 
and international community support.
    As part of the post-2014 presence, the United States and 
the international community should assist the Afghans to move 
from a donor economy, with outside sources representing the 
bulk of the resources, to a self-sustaining economy, focusing 
on mining, agriculture and transportation. I am going to defer 
economic engagement to my fellow panel member, Clare Lockhart, 
who is a recognized expert in the area.
    The central issue facing Afghanistan post-2014 is how to 
manage the security risk. How do we avoid squandering the gains 
we have made in Afghanistan security? Only if the security 
situation is stable and the Taliban know they cannot win can 
there ever be a realistic hope for a political settlement.
    Three key decisions post-2014 can mitigate the security 
risk and provide a hedge. Decision one is funding the Afghan 
National Security Forces. Currently, their transition from 
U.S./NATO leading combat operations to supporting a lead of the 
ANSF in combat operations, frankly, is going better than most 
expected. The growth and development of the ANSF into an 
acceptable force which has the respect of the Afghan people is 
quite an achievement.
    While it is still too early to tell how they will do 
entirely on their own, the preliminary indications are 
positive. Currently, the ANSF is at a force level of 352,000, 
which is funded through 2015. Options are under consideration 
to draw down ANSF post 2015. To draw down the ANSF on the heels 
of the U.S./NATO drawdown makes no sense and simply drives up 
the risk. We can mitigate that risk by planning to fund the 
ANSF at the current 352,000 to 2020. At some point, the Afghans 
will be in a position to contribute to that funding level.
    Decision two, the post-2014 residual force. The size of the 
residual force should be driven by the missions that are 
required for the force. Those missions are counterterrorism, 
training and assistance and enablers to the ANSF. The CT or 
counterterrorism focus is currently and should continue to be 
on the Taliban leaders to disrupt their ability to plan, 
support and lead combat operations. While leaders can be 
replaced, successful CT operations are very disruptive to the 
Taliban and definitely adversely impact their operations.
    Successful CT operations not only require a direct action 
force--in other words that is the force that makes physical 
contact--but also drone crews, intel analysts, helicopter 
maintenance and flight crews, medical trauma units and security 
forces. Training and assistance are essential advisors to 
assist the army and the police with their continued growth and 
development. These advisors would be mainly at operational 
headquarters spread over the six corps and the various police 
provinces and to the Ministers of Defense and Interior.
    The enablers for the ANSF is often misunderstood as to its 
importance. Just about every NATO country in Afghanistan who 
was involved in fighting requires enablers from the United 
States in varying degrees, such as helicopters, intelligence, 
medical, logistics and road and mine clearance. When the Afghan 
National Army was organized, recruited, and trained, the 
decision was to build an infantry force or a boots on the 
ground force. The enablers would be provided by the United 
States and are similar to what the United States currently 
provides NATO forces. Eventually, the ANA will have its own 
enablers but not until years beyond 2014. If the ANA is to be 
offensive minded, they must have confidence in their support. 
Otherwise, they will be paralyzed and be reduced to defending 
the bases. I will be specific, a summary of the force level 
requirements for the residual force in my view on 
counterterrorism, 7,000; advisors training, 5,000; enablers, 
8,000; with a total residual force level of 20,000.
    Decision three, Pakistan sanctuaries. A third key decision 
to reduce the risk is to authorize the targeting of the Taliban 
and Haqqani leaders in the sanctuaries in Pakistan. Priority to 
the Haqqani sanctuary because the situation in the east is not 
as stable as the south. This would be an extension of the 
mission the OGA [Other Government Agency] is conducting against 
Al Qaeda in the FATA [Federally Administered Tribal Areas]. 
Once systematic targeting commences, the sanctuary will cease 
to exist as we currently know it, a place where strategy, 
training, operational oversight, intelligence and logistics is 
executed routinely in safe haven. These functions will suffer 
significantly, which will positively impact operations in the 
east. Additionally, it would be a huge morale boost for the 
ANSF.
    Let me conclude by saying that if we are to avoid 
squandering the gains that we have made in Afghanistan, the 
U.S./international community presence post-2014 is essential. 
The Taliban are hoping to regain the momentum 2014--post-2014 
and will make a major effort to do so. What is key is the U.S. 
policy commitment to the stability and security of Afghanistan 
must be clearly stated time and again and moreover reflected in 
the political, economic and military assistance that is 
critical to reduce the risk of failure. We cannot afford any 
equivocation or mixed signals about the strength and resolve of 
the U.S. commitment to Afghanistan's future.
    Thank you and I welcome your questions.
    [The prepared statement of General Keane can be found in 
the Appendix on page 60.]
    The Chairman. Thank you very much.
    Ambassador Neumann.

STATEMENT OF AMBASSADOR RONALD E. NEUMANN, PRESIDENT, AMERICAN 
                      ACADEMY OF DIPLOMACY

    Ambassador Neumann. Chairman McKeon, Representative Smith, 
distinguished members, thank you for inviting me to appear 
today. The subject of how the U.S. presence is constructed 
post-2014 is truly important. It directly affects the issues of 
success or failure in Afghanistan, for which I and so many 
others have labored, for which some have made an ultimate 
sacrifice----
    The Chairman. Please pull your mike down.
    Ambassador Neumann. Sacrifice for which many have labored, 
billions of taxpayer dollars have been spent and for which many 
thousand Afghans have also lost their lives and limbs.
    Sacrifice creates a cost, but it is not a sufficient reason 
to continue sacrificing if there is not a reasonable chance of 
success, but neither is pain and fatigue, of which the American 
people are showing advanced symptoms, a sound basis for policy.
    I believe we will get the base security agreement. But I 
want to focus on a number of other things for the moment. I 
think we need to think of the post-2014 presence in terms of 
events which will happen even before that, events that will 
take place, actions we can take to undergird success and how we 
react to success, or failure, or problematic Afghan 
performance.
    The April 2014 Afghan presidential election is crucial to 
success. There are things we can do to make that success more 
likely. We should be pressing Pakistan to reinforce the border, 
as it did in previous elections, to slow infiltration. We 
should be planning for election observers. We should be 
instituting a brief increase in air support to increase Afghan 
ability to secure the vote. And we should be publicizing far 
more in Afghanistan our support for elections training and the 
mechanics of an election. We should also be clear on 
consequences if the electoral calendar is significantly 
breached or the election is disastrously mishandled by Afghans.
    Governance is a key part of future success. We have 
demanded improvement but lost credibility through lack of 
follow-through on our statements of conditionality. Change 
before the election is unlikely. In our own system, you would 
be unlikely to see painful major political changes in immediate 
pre-electoral period. But we should institute some level of 
pain so that we prove our seriousness now and not when a new 
government is trying to take hold after an election, that will 
provide, if we get lucky on the election, that will provide an 
opportunity to reinforce actions. And we should be positioned 
to take advantage of that if it happens.
    It is essential that we maintain the minimum civilian 
presence outside Kabul, both to manage program oversight and 
evaluation of diplomatic developments in governance. Post-
Benghazi fear should not cripple our diplomatic effectiveness.
    Concerning the military mission--and I associate myself 
with my colleagues--I want to stress that personnel needs must 
be related to greater clarity about what the mission actually 
is. ``Train and advise'' can mean many things. I believe, and I 
am joining my colleagues, that we need to be present at all 
corps and frequently in the brigades. And building the Ministry 
of Defense and Interior also essential tasks. And this probably 
means U.S. forces somewhere in the 10,000- to 13,000-man range, 
but the immediate issue for Congress is to demand that means be 
logically linked to ends. Further, there are multiple parts of 
the security mission and each needs to be clearly defined and 
linked to required resources.
    Some support and logistical elements are not finished, and 
part of the responsibility is ours. I would be happy to talk 
about that in greater detail, but we need to fill some gaps for 
a transitional period, and we need to plan for how those forces 
will be ramped down. Counterterrorist forces with a mission 
outside Afghanistan quite possibly should be considered on 
their own merits and not counted against a ceiling built around 
support for the Afghan mission. Afghan forces need to be held 
accountable for cleaning up corruption and implementing their 
promotions. We should be prepared for some cuts if those 
actions are not taken. We need not go into a frenzy of 
retaliation, but we need predictable retaliation for lack of 
performance and threats need to be implemented.
    Finally, in closing, let me say that on the basis of 
repeated trips of my own to Afghanistan, too, this year, I 
believe that success is still possible. It is very tough, but 
it is possible if we do not cripple ourselves through 
indecision and vagueness, and maintain the follow-through 
required of our policies.
    Thank you. I would be happy to take questions.
    [The prepared statement of Ambassador Neumann can be found 
in the Appendix on page 72.]
    The Chairman. Thank you very much.
    Ms. Lockhart.

  STATEMENT OF CLARE LOCKHART, DIRECTOR, INSTITUTE FOR STATE 
                         EFFECTIVENESS

    Ms. Lockhart. Chairman McKeon, Ranking Member Smith, 
distinguished members of the committee, thank you for the 
invitation to speak here today.
    As my fellow panelists have said, decisions made over the 
next few months will be foundational for security in the region 
and U.S. interests for the next decades, possibly generations, 
ahead. We can all acknowledge the mistakes in policy and 
implementation that have been made over the last decade: under-
resourcing; backing strongmen with disregard to the impact on 
corruption and governance; allowing an insurgency to emerge 
unchecked; and perhaps, more recently, a lack of coherence in 
political strategy. But despite this, it is clear that the 
commitments that we have made at terrible cost, but the policy 
course we have followed are now paying dividends; transition 
and the campaign are now working.
    Much of the pessimism about Afghanistan reflects news from 
2 or perhaps 5 years ago, and despite this, I think there is 
another story--and many of you have witnessed this in your own 
travels to the country--in ANSF, that is gaining the trust of 
the population and capability in carrying out their missions. A 
surprising fact: Afghanistan has outperformed all other 
countries on the human development index between 2000 and 2012, 
it has made more gains than any other country in the world on 
that index. And most of the challenges have been successfully 
navigated, the election law has been passed and transition to 
Afghan political and military control in all 34 provinces has 
succeeded.
    But considerable risks but also opportunities lie ahead, 
and it is clear that we are at a crossroads. We are looking now 
at a post-Karzai era. Political coalitions are emerging. A 
national debate is being launched, and this political 
transition has every prospect of succeeding if the right 
commitments are made. If it fails, I think we see the prospect 
of intensified conflict and the space for extremism to flourish 
in the future.
    I will start by mentioning some traps that I think we need 
to avoid. I think sometimes analysts get trapped by a forced 
dilemma between either a perpetual war or a grand bargain. The 
U.S. can and, in fact, has already ceased its lead role in the 
war, but it can still maintain a security commitment, as it 
does to many countries around the world for the years to come.
    I think the pursuit of a grand bargain with the Taliban and 
other elements of insurgency has been something of a red 
herring. I don't think it is attainable at the current time. 
Even if it were attainable, I don't think it will be enduring. 
And even if it were to endure, I don't think it's in either the 
Afghan or the U.S. interests.
    And final trap, a sense that Afghanistan is a graveyard of 
empires. I had the privilege to serve on the Bonn negotiation 
team in 2001 and lived for many years in Afghanistan, largely 
living among Afghans. And what I witnessed and continue to 
witness is that the majority of the population want a 
partnership. The Afghans are capable of building institutions, 
often at very low costs and perhaps, particularly, at low costs 
and that they have built a number of institutions over time.
    The key factor I believe in the security and stability of 
Afghanistan and its region going forward are the Afghan people 
themselves. I was once told by an Afghan civic leader that 
Afghanistan, he said, like any country in the world, has 95 
percent ordinary people, 4 percent thugs, and 1 percent 
extremists. We get diverted if we focus only on the 4 percent 
and the 1 percent and trying to construct bargains between 
them. He said the 95 percent are the real allies of the Afghan 
people. And these are the people who make up the ANSF, and 
their families. They run businesses. They run schools, clinics 
and farms. As we know, the new generation coming of age, 60 
percent of the country under 25 or under 30, depending on the 
statistics, represent an enormous opportunity for a different 
Afghanistan in the future.
    The key factor for the Afghan people to remain the bulwark 
of stability is confidence. The critical ingredient is their 
confidence of the Afghan people in their own future and their 
own security so that they can take the burden of stabilizing 
and rebuilding their country. They are not asking for a U.S. 
nation-building effort; they are asking for the stabilizer 
wheels that enable them to keep their own country on track.
    This confidence to keep this on track requires commitment, 
a sense of commitment, a fulfilling of the commitments that 
have already been made at Lisbon, Chicago, and Tokyo, in the 
Strategic Partnership Agreement. If the U.S. and then its 
allies can hold steadfast on these commitments, this will pay 
dividends that will allow Afghanistan and its region to 
stabilize.
    The talk of zero option, I am told by many of my Afghan 
interlocutors, seriously undermines confidence. And Afghan 
citizens don't always distinguish between official policy and 
statements by individual politicians and newspapers.
    What more concretely should this commitment consist of my 
fellow panelists I think have articulated extremely well, the 
security, the economic, and the political components, and I 
address these in my written testimony. To summarize them in 
brief, the most important of these is the security commitment, 
both the post-2014 commitment to forces that is sufficient in 
number and sufficiently resolutely made to be a credible 
backstop enabler and trainer to the ANSF and a credible 
deterrent to countries in the region who may seek to threaten 
Afghanistan sovereignty or territorial integrity. Commitment to 
support for the ANSF sufficient that it can secure the country 
against critical threats to the sovereignty and territorial 
integrity of the country and any agreements--the Strategic 
Partnership Agreement, of course, is already in place. The BSA 
[Bilateral Security Agreement] is under consideration. I agree 
that that is an absolutely critical agreement. My only caveat 
is that if it meets obstacles, this piece of paper should not 
become an obstacle to the U.S. making the commitments that are 
in its interests. I think there are legal agreements that have 
been already made that may provide sufficient legal basis for 
continued U.S. presence.
    I think there are two other critical factors: The economic. 
I think we can acknowledge that many Members and particularly 
their constituents, the U.S. taxpayers, have reached the limit 
of bearing the cost in blood and treasure for foreign wars, and 
this is very understandable. So I think this makes it all the 
more critical that Afghanistan move towards economic self-
sufficiency. Afghanistan had the most flourishing agriculture 
in Central Asia. Agriculture provides 80 percent of the jobs 
and 20 percent of the GDP [Gross Domestic Product], so 
continued investments in agriculture are critical.
    Sometimes the discovery of minerals and hydrocarbons is 
dismissed as a 20-year project that probably won't come to 
fruition. I think this assessment is wrong. The recent 
discoveries of hydrocarbons in the country and the mining that 
is already happening presents a very realistic revenue base. 
And the more that this can be developed, the more that 
Afghanistan can pay for its own security forces and other 
costs. And I think that development assistance needs to be 
tailored to those investments that will see Afghan revenue 
increase. The more Afghan revenue increases, the less it will 
be dependent on U.S. and other financial commitments.
    And then, finally, the political track. As I argued, the 
focus on the grand bargain I think has been something of a red 
herring, will bring neither peace nor stability in the short or 
medium term, but there are other elements of a political 
strategy that are fundamental to the security success. And the 
first of these is getting elections right. The second is the 
national dialogue amongst the nonviolent constituents of the 
country, so that they can agree and particularly between 
different ethnic groups. How do the different ethnic groups 
agree on a formula for governance in their country and a sense 
to share power.
    Addressing both the real and perceived grievances of 
different populations, and here particularly some of the 
populations in the south and east; the disaffected Pashtun 
population, not so much a question of bringing the Taliban back 
in but addressing the grievances of Pashtun communities; 
continued reform, the bulk of which will be on the shoulders of 
Afghans, and then a different approach to Pakistan and asking 
Pakistan to live to its international commitments of respecting 
the territorial integrity and sovereignty of its neighbor.
    And I think the region, there is a real opportunity to set 
out a common agenda of regional stability and counterterrorism 
that they are in concert with the interests of most countries 
in the region, including critically China, India and Russia.
    Finally, I was asked to consider the implications for 
Afghan women and what will happen to them post-2014, and I 
think that what is required to protect women are the same 
factors that are required for the protection of any Afghan 
citizen, man, woman or child, and it is this commitment to 
Afghanistan's future security.
    The recommendations are not a new set of recommendations; 
most elements for this are already in place. But I believe all 
of them are critical to see the campaign succeed.
    [The prepared statement of Ms. Lockhart can be found in the 
Appendix on page 85.]
    The Chairman. Thank you very much.
    I have been concerned that the United States policy in 
Afghanistan is already focused toward the exits and not 
sufficiently focused on our own long-term vital interests.
    As you know, the President's decision on the post-2014 
presence and mission set is forthcoming.
    Ms. Flournoy, in your testimony, you encouraged the 
President to describe the United States post-2014 commitment 
sooner rather than later to counter the Taliban's narrative of 
abandonment and bolster the confidence of the Afghan people and 
security forces.
    I know we were in Afghanistan at the same time earlier this 
year. And that was a message I got also, that it was very 
important to work on. In fact, I was hoping that we could have 
had the agreement before now. You also indicated that such a 
signal of commitment could reasonably be described by a range 
of U.S. forces. How would a U.S. post-2014 commitment 
announcement impact other actors in the region?
    And is there a troop level at which our commitment would no 
longer be perceived as credible, either by Afghans, our allies 
or other regional actors? What is that threshold? I would like 
each of our witnesses' thoughts on that matter.
    Ms. Flournoy. So I do think a U.S. announcement of an 
intended commitment, even if it is announced before the BSA is 
concluded, would have several positive effects. Number one, it 
would completely disrupt the Taliban narrative that we are 
leaving, we are abandoning ship, you know, we will be gone, and 
so they will be resurgent again.
    Second, as several of my colleagues have said, I think it 
would really bolster the confidence of those Afghan people and 
those who are invested in a different and more stable and 
hopeful future for Afghanistan.
    Third, I actually think it would affect the environment in 
which the elections will be held. And it would put an end to 
some of the hedging behavior that we are seeing from different 
parties, from Karzai to some of the opposition figures, because 
of the uncertainty of their future and particularly the U.S. 
commitment to their future. I think it would send a strong 
message to Pakistan that would affect their calculations about 
how they are going to behave and others in the region.
    And finally, I think it would actually help us in 
concluding the BSA negotiations. Right now, you know, Karzai 
has made some demands that have I think put the U.S. a little 
bit on the defensive in the negotiations. I think if we were to 
state a clear commitment of intent, and the only thing standing 
between realizing that commitment for the Afghan people is the 
Afghan government being reasonable in the negotiations and 
coming to a conclusion, I actually think it shifts the burden 
in the negotiations and puts pressure on Karzai and the Afghan 
government to get to an agreement, a reasonable agreement. So 
that is why I think it is so important for us to try to 
articulate this commitment clearly very soon.
    You know, as for what the threshold is, I have to be 
honest, since I have been out of government I have not been 
privy to the sort of classified assessments of different levels 
of forces. I think, I do think there is a band that could work. 
I honestly don't know exactly where the threshold is, which is 
why I focused on, what are the criteria that we should assess a 
force against, and I would defer to General Keane and others at 
the table who may have a better idea of a particular threshold.
    General Keane. Yes, thank you.
    You know, Ambassador Ryan Crocker made a statement that I 
think is pretty revealing and insightful for all of us when he 
said that how you leave a country and what you leave behind is 
more important than what you began with. And that certainly was 
the case in point in Iraq, and it is right in front of us again 
in Afghanistan. War is fundamentally a test of wills and Sun 
Tzu taught us that the ultimate objective of war is to break 
your opponent's will. So will is very important here. And what 
we want to demonstrate to the Taliban clearly, not just in our 
words but in our actions, that we are committed, that the 
stability of Afghanistan is real to us, and we are going to see 
it through to the end. And we are not going to bail out as 2014 
approaches and leave the Afghans with far too much risk. So how 
we act in the next year or so I think is pretty critical to the 
long-term security.
    I believe fundamentally that we should be looking beyond 
Karzai, put his mercurial personality--he drives us crazy with 
his statements, you know, with his unpredictability. We have 
got to look beyond him. We will have a new leader at the end of 
next year, and I don't think his demands and his personality 
should be affecting our decisions because we are talking about 
a long-term relationship with Afghanistan that we have already 
agreed to, that it is of strategic importance to us, and we 
cannot let the personality get into this to the degree that it 
does.
    In terms of the numbers, I put them out there. I think 
20,000 is what you need to get the job done, and that is done 
on a fair number of analyses with a lot of people assisting 
that. If you put a map of Afghanistan down in front you and the 
size and scale of the country is significant, there is no way 
that you can put all of our people at a base, secure them and 
then conduct operations. It takes a couple of hours by C-130 to 
get to Kandahar, which tells you, you have to have a base 
there. Our major threat in the east is coming from Miranshah, 
where the Pakistani sanctuary is. We cannot deal with that 
threat operating out of Bagram Air Field by itself. That means 
you have to have another base out there. If you look at the 
geography of it and then you start to apportion resources, you 
get to a number actually that is in excess of the number I gave 
you. And I think that is the minimum number required to meet 
the counterterrorism requirement, and as I tried to tell you, 
out of the 7,000 I am recommending, only 2,000 of those go in 
and kick doors down. All the rest is to support them in their 
efforts that I tried to enumerate what those functions are that 
are essential for those that kick doors down to be successful. 
And we just can't arbitrarily dismiss the numbers, because 
numbers do matter; they are tied to the functions that are 
represented.
    Iraq is a case in point, the commander in Iraq, Lloyd 
Austin, now the CENTCOM [Central Command] Commander, 
recommended a force of 23,000, 24,000. The personal envoy for 
the President of the United States came into Iraq and in final 
negotiations and put 10,000 on the table. No one took that 
number seriously and that went to 6,000, to 3,000 to nothing. 
And it began because the number put on the table was not a 
serious number. Thank you.
    The Chairman. Thank you. Ambassador.
    Ambassador Neumann. Thank you. It is a really important 
question and one that I have looked at in some detail, although 
not probably as closely as General Keane, but I very much agree 
with his basic points. I think the starting point is to 
understand that we are such a big player in Afghanistan, that 
everyone, to some extent, takes position on us. Friend, enemy, 
neutrals, they all condition their approach in part by what 
they think we are going to do. And a lot now think that we are 
going to bolt and leave. And so that produces what Michele 
talked about, hedging behavior; that is if you are an Afghan 
and you are trying to survive and you are making decisions on 
that basis, whether that is, do I have to steal more because I 
am going to have it to run? Do I have to tighten ties with 
militia groups instead of work on professionalizing the army, 
because I have got to have somebody I can rely on to fight with 
me? All these so-called hedging behaviors are 
counterproductive, but they are survival driven, and you get 
them when we you are vague--when we are vague about what we are 
doing.
    We have a lack of clarity. We have a policy which has a 
number of commitments in Tokyo, in Chicago, to maintain forces 
in the last defense ministerial. And we have a public 
discussion that emphasizes departure and rarely mentions any of 
the commitments. It doesn't take brilliance to figure out that 
there is a lack of solidarity in this piece.
    You asked, is there a number below which we lose 
credibility. I am sure there is. I don't know that I could or 
any of us could exactly say because it a psychological 
question; it is about will. But if the number of forces at the 
end of the day is manifestly incapable of carrying out the 
missions we have talked about, then I think that will become 
readily evident in our public discussion, in a lot of other 
people's discussion, and it will lead to reinforcing the view 
that what we are doing is heading for the door. I don't know 
that that number is exact. But at this point, there is so 
little clarity on what these missions mean. General Keane has 
talked quite correctly about what they ought to mean, but I 
don't know what this administration actually intends to 
accomplish with these missions. I think that discussion is 
going to be illuminating if we get there.
    The Chairman. Thank you.
    Ms. Lockhart.
    Ms. Lockhart. Chairman, to your first question, how does 
the announcement affect our countries in the region, I think 
the first is it affects, within Afghanistan, as Ms. Flournoy 
articulated. It seeks to mitigate the hedging behavior that is 
so prevalent at the moment because of the uncertainty. I think 
the more certain and resolute the announcement can be, it is 
this that will help the moderate middle to rally around the 
future in such a way as to do the hard work of marginalizing 
the extremes.
    In terms of the region, I think it is particularly to the 
calculus of Pakistan that it is relevant, but also to other 
countries, India and China, and send a clear sign of the type 
of post-2014 future that they could also rally around. And I 
think here again, the clear interests that they have in both 
stability and seeing the threat of extremism marginalized.
    To the troop level, I have not seen the detailed analysis 
and can't give a specific number, but I think I talked to two 
factors: First is the troop-to-task analysis; what are the 
missions and tasks, and what are the numbers that are required 
to carry them out? It is clearly an important factor in the 
analysis. And then the second is the symbolism, is the credible 
signal that the commitment would send both to the Afghans and 
to the region and perhaps the possibility to be considered of 
leaving the door open to consider additional contingent forces 
should the threats of insurgency or neighbors materialize to 
provide a deterrent effect. And that may not be politically 
feasible, but I think that may help send the kind of signals to 
the region.
    And the final comments here I think the vision of a 
minimalist CT mission should not beguile us. This is pretty 
much what we tried in 2002 to 2004. A minimalist CT mission in 
the countryside partnered with strong men and their militias, 
but it was precisely this type of approach that so alienated 
the Afghan population because of the behavior of the militia 
groups and the lack of attention to the basic fundamentals of 
governance.
    The Chairman. Thank you very much.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Just following up a little bit and directly, General Keane, 
some of your comments about the numbers. I think the will that 
is most important here is the will of the Afghan government and 
ANSF and the Afghan people, and that is really the fight here, 
is will they stand? Will they maintain their government? And 
part of our mission has been to help them but also not make 
them dependent, and that is the difficult balance, because we 
cannot stay there forever. In fact, to some degree, our goals 
in Afghanistan are undermined if we stay there forever.
    One of the things that has happened recently is that the 
Taliban have been presenting themselves first and foremost as 
fighting off a foreign invader, which is a pretty popular thing 
generally in Afghanistan. But now, certainly for the last 6 
months to a year, they have primarily been killing other 
Afghans, which undermines that argument, and that is where we 
have got to get to, is the Afghan people being responsible for 
their own security.
    Now I will grant you, it is a tough balance. You don't want 
to leave them too soon. But if we stay there--if we look at 
this solely from the standpoint of--obviously, we are more 
capable than they are. If the analysis was simply that, we 
would keep 100,000 troops; we would keep 150,000 troops there 
if that is the sole equation. But the real equation is, how do 
we transition?
    And also, I just want to say, on Iraq, the reason things 
fell apart in Iraq was not because we didn't sufficiently 
commit the numbers; it is because the Iraqi people didn't want 
us there. And it was a democracy. And their members of 
parliament knew what their people wanted. They weren't willing 
to give us the agreement, give us the immunity that we wanted 
to, and ultimately, whether it was 2,000, 3,000, 10,000 or 
100,000, they weren't willing to give us what we needed to stay 
there, and that is a different equation. That is the difficulty 
of sovereignty.
    So when you were running through the numbers of the need to 
be in Kandahar, the need to be in the east, one piece of that 
is the ANSF. I mean, the way you stated that sort of assumes 
that we are the only fighting force there. I will grant you, we 
are vastly more capable. And I was just in Afghanistan, as I 
mentioned, and there is a lot of improvement that they have 
made, but I still have questions about the capability of the 
ANSF, certainly in terms of their air support, in terms of what 
they have.
    But in analyzing the chairman's question, if you could talk 
a little bit about what the ANSF presence, how does that help 
us in Kandahar? How does that help us in the east? How do we 
balance what they are able to bring to the fight with the 
number that we need to bring to the fight? Your 20,000 and up 
number, how does that factor in with what you think the ANSF is 
going to be capable of, keeping in mind, they have got to get 
capable at some point. It has been at least now 4 years since 
we moved in with a very aggressive train-and-equip mission. And 
I think they have shown improvement. I think all of you have 
acknowledged that. So how do you see their capability as being 
able to fill some of those gaps that you described?
    General Keane. Well, certainly, I think we have had the 
most success in the south, and we had some success in the east 
that exceeded our expectations as well, but there are still 
more challenges in the east. Look, the ANSF is clearly doing a 
good job, and the fact of the matter is, they are able to hold 
onto the gains that we made when we cleared out the Taliban in 
the Arghandab Valley in the south. It was the toughest fighting 
we have been involved in, in Afghanistan, and they have been 
held--they have held, and that is a good thing. But all I am--I 
think we are just arguing over X thousands of numbers here, 
which in of itself could detract from the will issue, because 
it--the Afghans will perceive that the number is not 
sufficient, and they understand what they need.
    The fact of the matter is, what I tried to illustrate, the 
Afghans are in the lead. They have an infantry-based force, and 
they need some enablers to help them do their job day in and 
day out, so we have to give them some of that because they 
don't have it. They will eventually get it, and as they get it, 
we bring that number down.
    The counterterrorism mission is you cannot run 
counterterrorism in the south to attack Taliban leaders, which 
would be very helpful in disrupting operations, out of Bagram 
Air Base. It is just not going to work. So you got to have some 
capability down there, and that means, okay, then we got to 
bring helicopters. We got to bring drones down there. We have 
to bring intel analysts and do all of that. We have that there 
now.
    And then the other thing is, those forces say--I am just 
using the south as an illustration. Those forces in the south 
that are operating there, admittedly capable, we would like to 
have some advisors stay in those headquarters to assist them in 
the planning of their operations and also to provide them 
feedback into the execution of it.
    So, those are the three things that would be there, and 
they get you to the kind of numbers that I am providing to you. 
Can we take that down to 10,000 and say that is going to--we 
are going to make due with 10,000? I think that would--I don't 
believe the analysis would support that number, and I actually 
think what you get from that is a sense of a lack of support 
from the United States.
    Mr. Smith. I think that is----
    General Keane. Our force level right now is 87,000, 
counting NATO and U.S. U.S. is about 60,000, and we were coming 
from a high of 130,000, so there is no doubt we are leaving, 
and we are pulling out forces. What we are arguing over, what 
is an acceptable force to meet the requirements that still 
exist there in terms of our responsibilities.
    Mr. Smith. Right. But I think if you look, look at the 
analysis the way you do, I mean, we should leave 100,000 based 
on your analysis. If it is simply a question of will, if that 
is the only analysis, then why are we drawing down at all. I 
just think that there is that other piece to it is limiting the 
dependency and building up, you know, Afghan sovereignty, which 
I think is an enormously important goal as well.
    But, Ms. Flournoy, you want to get in there.
    Ms. Flournoy. I just wanted to interject.
    I think in terms of based on press reports, the--the 
initial discussions and estimates from, coming in from 
commanders in Afghanistan have been more in the range of 12,000 
to 15,000, and I think that number is inclusive of NATO 
contribution. So I think that has been the band that has been 
most focused on so far as a sort of trying to find that--the 
balance between what I think you rightly pointed out, what do 
we need to successfully do all of the tasks that have been 
outlined but still ensure that we are really enabling the ANSF 
to be in the lead and stay in the lead and build up their 
capacity over time.
    Mr. Smith. Thank you, Mr. Chairman.
    I yield back.
    Ambassador Neumann. Could I join that for just one second?
    Mr. Smith. If you could do it quickly. We have got a lot of 
other members here. I don't want to monopolize.
    Ambassador Neumann. The fact that we have begun to pull 
down has pushed the Afghans to better performance. That is very 
clear. The question is, how do you keep that momentum within a 
realm of possibility? If you move it too quickly where they 
can't do something, then you diminish the will. That is the 
only point I wanted to make.
    Mr. Smith. Absolutely. I think that is the exact analysis. 
I agree. Thank you.
    Mr. Wilson [presiding]. Thank you, Mr. Smith.
    We now recognize Vice Chairman Mac Thornberry of Texas.
    Mr. Thornberry. Thank you, Mr. Chairman.
    I want to ask briefly about a couple of issues that we have 
talked about in previous hearings that we really haven't talked 
about today. One is force protection.
    General Keane, as you are looking through these numbers, I 
assume we are--our folks, who would remain, would rely upon the 
Afghans for force protection. Is that true? Are you comfortable 
with that?
    General Keane. I think we would rely on--yes, it is true 
that we would rely on them, but we would also rely on some of 
the bases that we are running. We would continue to use 
contractors to help us with the security that we have. And I am 
assuming that they would not be, obviously, in our numbers. So, 
some of that security can be taken care of using ANSF and also 
contractors.
    Mr. Thornberry. I think that is an important point because 
there is lots of contractors doing a variety of things in 
Afghanistan, and while it may not be on some of our numbers, 
still, it plays a role in how many Americans are there for the 
future.
    The other issue that we talked a lot about is Afghan Local 
Police [ALP] program. And I would be interested in--as a matter 
of fact, it may have been Secretary Flournoy who has testified 
in the past, it was one of the most promising things going on 
in Afghanistan. So, where is that now and where does that head 
2014 and beyond?
    Madam Secretary.
    Ms. Flournoy. So, the ALP program has been a very important 
part of shifting the momentum on the ground. It is the most 
feared element of the ANSF by the Taliban because it is so 
organically of the local population and, you know, so much 
rooted in the local population.
    There have been some problems with individual units, either 
units that were calling themselves ALP but were really militias 
or a few units who had human rights transgressions and so 
forth. I think those have been addressed. The real problem--the 
real challenge for the ALP going forward is to--the transition. 
These are forces that have been mentored by our Special 
Operations forces. They are now being transitioned to oversight 
by the district police chiefs, the Afghan police.
    That makes sense as a long-term solution, but I think right 
now the capacity of those district police chiefs to actually 
effectively have that oversight is very uneven in the country, 
so I think this is something that is very important for us to 
get it right, but we have to watch it very carefully and sort 
of hand tool each of these transitions so that we don't end up 
with rogue elements that are not responsive to the Afghan 
government. But they have the potential to continue to play a 
very positive and important role going forward.
    Mr. Thornberry. Anybody else like to comment on that? 
Ambassador.
    Ambassador Neumann. I just spent the last 2 weeks looking 
specifically----
    Mr. Thornberry. If you would punch your button, please.
    Ambassador Neumann. I just spent 2 weeks looking 
intensively at ALP, particularly with a number of colleagues, 
but I was particularly in Zabul, Kandahar, and Helmand. There 
are a lot of positives. There are some places where they are 
really good. There are a lot of problems, and there are a lot 
of political issues that are also intertwined with ALP. I am 
all in favor of doing--supporting what we have got so far, but 
in order to do exactly what Ms. Flournoy was just saying, be 
careful. We should not be trying a rapid expansion of those 
forces. That exceeds our capability. If we are going to fix and 
sustain the positives in what we have created now, we have to 
focus down on that and not try to go in two directions at once. 
I am convinced we do not have the capability to do that.
    Mr. Thornberry. And the danger is we rush this through, and 
so what you end up is someone--or units that may be more like 
militias than otherwise, and I worry about that rush----
    Ambassador Neumann. You have some of those already. You 
have some areas that are tremendously positive. You have some 
areas that are incredibly politicized; some where they are not 
actually from the villages at all. And you, frankly, have to go 
at a very high level of detail. I think the only thing I can 
conclude is that any generalized single statement about the ALP 
is wrong.
    Mr. Thornberry. Okay. Thank you all.
    Mr. Wilson. Thank you, Mr. Thornberry.
    We now proceed to Congresswoman Susan Davis of California.
    Mrs. Davis. Thank you, and thank you all so much for being 
here.
    I suspect the American people who are watching this, and 
you can just tell partly from attendance and the fact that we 
have no media here, that it is a little bit of a yesterday's 
war to people, but I also, and we know that men and women are 
still dying there, and so it is not for us.
    But I just wonder about that, you know, and the ability 
that we have even as Members of Congress to convince 
constituents that we--there is still a very important role that 
we are playing there, and that is difficult.
    What I would like to focus on is the election, because, on 
the one hand, we know that it is very important. On the other 
hand, we are also suggesting that it is not a panacea, of 
course, that we can't predict a positive outcome necessarily, 
but I hope that you can address what--what are the levers that 
we have there? Because for us to speak to it being an inclusive 
election when we, on our last trip to Afghanistan over Mother's 
Day, I can assure you that one of the biggest concerns is the 
election and whether or not there are going to be people at the 
polls to help women to vote because they have to, you know, be 
inspecting people as they come to the polls. They may not have 
enough people to do that. We have our own services that are 
being drawn down, and we want to be sure we have them as well 
as the police, and Afghan military is helping as well.
    What--what ought we be doing? We don't have a lot of time, 
and I certainly wouldn't want us to say, well, you know, we are 
not going to put all of our efforts in there, even though we 
know it is important, because if it fails, we--you know, we 
don't want that to be taken as the failure of the future of 
Afghanistan. What ought we be doing?
    Ambassador Neumann. You are asking?
    Mrs. Davis. Ambassador.
    Ambassador Neumann. In my written testimony, I have made 
four specific recommendations about the election. The question 
of people going to the polls, and women going to the polls, the 
first piece is the security piece; will they feel they can go 
there at all?
    Mrs. Davis. Exactly.
    Ambassador Neumann. That is why I believe we need a time-
limited reinforcement of air during the election period, 
because the Afghan forces are going to be responsible for 
security. But giving a little more combat air cover, transport 
and helicopters would incredibly extend their reach and their 
self-confidence in providing that security, which I think is 
the first key to people actually going to the polls.
    Helping women go to the poll is a very complex issue. We do 
have some programs, and I think they need to be reinforced, but 
I am dubious that there is anything within our power within the 
next few months beyond the selection itself. But showing that 
the election is important to us also makes the issue to the 
Afghan politicians, because a bad vote is one catastrophe, an 
election that is--whose results are not treated as legitimate 
is also a disaster. So, too, would a very narrow victory and a 
hard-fought emotional election where you don't have a tradition 
as we do of accepting the winner and you get recrimination, and 
so, for that, we need to be pushing also on Afghan politicians. 
We need to make clear that a really disastrous election is 
going to have consequences for them, because I think that is 
the reality of our political support of what you were just 
talking about.
    Mrs. Davis. And should that be done in terms of resources 
in addition to the air cover? You know, what are the specifics, 
because we get a lot of lip service for this, but it worries me 
that we are not acting on that.
    Ambassador Neumann. Two specifics: One is to continue, 
reinforce and publicize the amount that we are working with the 
Afghan electoral commission, the electoral complaints 
commission, the training--well, three suggestions. The second 
is mobilize international observers, including Americans. The 
Afghan observers will be key because internationals will not 
get too far out of cities, but international observers will 
give a huge megaphone to Afghans who will otherwise have a 
great deal of trouble having their voice heard, and that also 
focuses on the correctness of the election.
    So, observers, the force, publicizing what we are doing and 
making clear in our public statements that if this is a 
fraudulent mess, if the Afghan politicians can't come together 
and you have got 20 candidates dividing up the vote, expect 
that this is going to have consequences in our support because 
much as I support this mission and have spent a lot of time on 
it, I think the reality is we will have trouble maintaining 
that support if this election is a disaster, and we ought to 
make that clear.
    There is a lot of fear driving the Afghan politicians 
momentarily to get together. The fear is correct, and we ought 
to make sure they understand it is correct.
    Mrs. Davis. I was going to go to Ms. Lockhart, but I am 
sorry that our time is up. Maybe you can pick up on it.
    Thank you.
    Mr. Wilson. Thank you, Mrs. Davis.
    I have the unique opportunity to recognize myself, and I 
have actually--I am really grateful to be here with this panel 
because I have had the privilege of working with you over the 
years, and I want to thank each of you for your service, 
commitment, dedication. Each of you are extraordinary people, 
and I have been looking forward to the hearing.
    Additionally, I sincerely believe that this is so important 
because the attack of September the 11th originated in 
Afghanistan. The security and success for the people of 
Afghanistan is important for the people of America. My home 
State particularly appreciates this. South Carolina, my former 
National Guard unit, the 218th Brigade, served in Afghanistan. 
It was the largest commitment, 1,600 troops, since World War 
II, and the leader, General Bob Livingston--we still have 
battalions there--he has described it that, indeed, we have 
created a warm relationship with our Afghan brothers, and so 
I--it is very meaningful to the people that I represent.
    Ms. Flournoy, your opening statement, I thought, was very 
positive. I appreciate your efforts to fulfill the President's 
commitments, understanding the extraordinary relationship 
between our success for the people of Afghanistan and a nuclear 
Pakistan.
    With that in mind, what do you see the status of the 
Bilateral Security Agreement? Are there any timetables that we 
can look for?
    Ms. Flournoy. My understanding is that the informal 
negotiations at the working level on the Bilateral Security 
Agreement have actually made a lot of progress. The--I think 
the two outstanding issues from--that President Karzai has 
publicly spoken to are the desire for an explicit U.S. security 
guarantee for Afghanistan, comparable to what we have with some 
of our treaty allies around the world, and promises of much 
more sophisticated and advanced military weaponry for the 
future, which, frankly, at this point in time, the Afghan 
security forces would have trouble integrating, and trying to 
do so would sort of take their eye off the ball of getting to 
proficiency in the--on the ground and with current threats.
    But I think those are the two sticking points from the 
Afghan perspective. I think from the U.S. perspective, the most 
important issues are immunity for our soldiers from prosecution 
in Afghanistan and also the ability to lease the Afghan 
infrastructure and bases that we need. So, I think there has 
been a lot of progress made. My--I think everybody is aiming 
towards--at least the American side is aiming towards October/
November timeframe. Again, I think that would be facilitated by 
an announced commitment, the nature of our commitment going 
forward, but, you know, will--to be determined in terms of how 
those negotiations conclude.
    Mr. Wilson. Well, I greatly respect your judgment, and 
indeed, General Keane, as a veteran myself of 31 years in the 
Army and son of a Flying Tiger but very grateful dad. I have 
four sons currently serving in the military. I have great 
respect for you. You have already really hit on this, but why 
is Afghanistan important to the American people?
    General Keane. Well, you--you mentioned it. It was a 
sanctuary from which the Al Qaeda attacked us, and we certainly 
want to prevent another sanctuary from being established there. 
We deposed a regime, and in deposing that regime, we had some 
responsibilities to what comes after that. We certainly didn't 
invent the reemergence of the Taliban that came--tried to come 
back and take power, but I do believe we contributed to it 
because Iraq distracted us from the priority that Afghanistan 
had, and they immediately went on a diet starting around as 
early as 2002. And the truth is, we never got the force level 
right to deal with the reemergence of the Taliban until 2009 
when President Obama made the decision to escalate.
    So that contributes, you know, to the whirlwind. It's our 
policy decisions that contributed to it. We could have dealt 
with this a lot sooner, but it matters to us because of 
stability in the region and it matters to us also because of 
the threat that is in that region, and we don't want them back 
establishing a sanctuary again in that region.
    Mr. Wilson. Thank you very much, and Ambassador Neumann, I 
have had the privilege of seeing you firsthand in Kabul, and I 
know your extraordinary work. How do you perceive the influence 
of Pakistan in the future of Afghanistan?
    Ambassador Neumann. Pakistan's influence is going to remain 
very strong. They are sewing the seeds for a really bitter 
harvest. The Afghan resentment of sanctuaries in Pakistan has 
always been large, but it is, in my judgment, getting even 
larger, and some of that Afghan fear of Pakistan drives the 
commitments that they are asking for the BSA.
    But Pakistan's operations also come out of a mixture of, 
frankly, weakness and also fear that they will have to deal 
with chaos in Afghanistan. So that if one wants to change 
Pakistan's policy, I think we have to change their fundamental 
belief that we are going to abandon the place and leave a mess 
because that is--and they have been very explicit about that at 
least in private--that is what drives their views. So when 
people say, for instance, why doesn't Pakistan see the 
stability of Afghanistan is in their interest? The answer is 
that they don't believe that that is something within their 
means to influence because they think we will leave too early 
and we will leave chaos, and so they base policy on that as a 
starting point.
    If we want to change their actions, we need to change the 
paradigm in which they are viewing the world around them.
    Mr. Wilson. And I appreciate all of you all's perspectives, 
and thank you, again, for your service.
    Congresswoman Niki Tsongas of Massachusetts.
    Ms. Tsongas. Thank you, Mr. Chairman.
    And thank you all for being here. Since becoming a Member 
of Congress, I have had the chance to visit Afghanistan five 
times, and on my last trip with Congresswoman Davis and a group 
of us that went over on Mother's Day and have done so for a 
number of years with a twofold emphasis, one, to meet our women 
serving in our behalf and to thank them and to see what their 
experiences are but also to sort of see where Afghan women are. 
And in every instance, but in particular, in this time, you 
know, we always meet with an impressive group.
    We met with female cadets at the country's military 
academy. We met with women working at the U.S. Embassy in 
Kabul. We met with a whole host of students and teachers, 
university students in Herat, government officials, and 
community leaders, and their stunning accounts really of life 
in Afghanistan before and after Taliban rule really makes so 
real for us something that we already know, that Afghan women, 
in the course of our being there, are now broadly participating 
in Afghan society, particularly in urban areas, and that they 
are vital to the stability of their country.
    Countless studies have shown that gains for women have a 
direct positive effect on sustainable development, economic 
growth, and most importantly, peace. Women's equality is more 
than a moral issue. The investment in women and girls is a 
matter of national security for Afghanistan and I think for our 
country. Significant gains have been made over the past decade, 
and I think it is really important for us to make sure that 
they are protected to the greatest extent possible as we 
continue to draw down.
    We also heard, really, their--talk about the whole notion 
of abandonment and how concerned the Afghanis are that they 
will be abandoned as we draw down. This was particularly true 
with many of the women that we met with. They have taken 
advantage of the opportunities that have been offered. They 
have brought great talent and professionalism to what they do 
in Afghanistan. They are deeply committed to their country and 
very worried as we draw down as to where they will be left.
    And it actually troubles me that today, other than Ms. 
Lockhart, that I haven't really heard, except in response to a 
question, any of you really mention that--mention Afghan women, 
because we also heard over and over again how important it is 
that, at the very least, we talk about women as we do all that 
we need to do.
    So, you all have mentioned a lot of facets to our 
drawdowns. It is the elections, I think, we should be talking 
about, what we do to have women fully participate. We did, with 
Congresswoman Davis' question, negotiations of the Bilateral 
Security Agreement, how do we put these issues on the table, 
participation in the security forces and the police. We met 
with young cadets who are participating in the security forces. 
We hear some of the alarming incidents that are visited upon 
them as well as on the--on the police. And even in terms of the 
conditionality, as we draw down, you know, what do we put in 
place to hold the new government's feet to the fire.
    So, my question is really--is for all of you. I won't have 
time really, but I would like to ask you, Secretary Flournoy, 
that understanding the current situation for Afghan women, both 
plus/minus the very fragile nature of their gains, do you 
believe it is possible for Afghan women to play the necessary 
role in shaping Afghanistan's future, and how do we make that 
happen? What is it that we, in particular, can do, not just 
broad statements, but are there metrics we should put in place 
so that we can actually measure and hold--hold all of us 
accountable as we draw down?
    Ms. Flournoy. Absolutely.
    And Congresswoman, I couldn't agree with you more. In fact, 
in my written testimony, I do actually address this issue and 
agree with many--make actually some of the same points you just 
made about the importance of women in the overall development 
of Afghanistan.
    I do think it is important that we track very carefully 
women's participation--access to education and healthcare, 
participation in the economy, everything from their, you know, 
roles as entrepreneurs to more broadly and also participation 
in politics as more and more women have done. They have taken 
real risks to become more fully part of Afghan society again, 
and they are--they will face substantial danger if there is any 
sort of rollback of that trend.
    I agree with Clare that the biggest thing we can do is 
shore up our commitment, but I think tracking metrics 
associated with women, reaching out and engaging, as you have 
been doing, as other officials travel, people to people, but 
building those ties and ensuring that we are supporting them 
and then trying to ensure that there isn't any kind of 
backsliding as we draw down and the transition occurs, I think 
it is a very, very important element of our policy.
    Ms. Tsongas. I am sorry I don't have a chance to hear from 
all of you, but just a hedging that might be going on for 
Afghan women as they are trying to calculate what lies ahead 
for them. At the very least, if we don't bring them up in 
public discussion, that that will be a self-fulfilling 
prophesy. They will begin to withdraw on their own.
    Mr. Wilson. Thank you, Ms. Tsongas.
    And I have had the privilege of being with Ms. Tsongas to 
see how inspiring it is to see little girls going to school. It 
just is a heartwarming experience.
    We now recognize Congressman Trent Franks of Arizona.
    Mr. Franks. Well, thank you, Mr. Chairman, and thank all of 
you being here.
    General Keane, if it is alright, I will begin with you, 
sir. Thank you for your lifetime of service to protecting human 
freedom. I have 5-year-old twins, and I know that they have a 
better chance to walk in the light of freedom because of people 
like you, and I appreciate it.
    General Keane, al-Zawahiri, the leader of Al Qaeda recently 
issued directives named ``General Guidelines for Jihad,'' and 
the first point he made is, is as follows: He said, it is not a 
hidden secret that our work in this stage has two aspects; the 
first is military, and the second is propagational.
    And you know, I have no doubt that, after 12 years of war 
with Jihad, we have become more tactically inclined in fighting 
the enemy in armed combat. In fact, I think we have engaged 
them on a kinetic and tactical level in unsurpassed success, 
but I am concerned that we perhaps have not engaged them on the 
strategic level, mainly, the narrative of why they do this. You 
know, we try to play down that there is an ideological core 
when yet it is obvious that this enemy feels transcendentally 
justified to do what they are doing.
    And I kind of fear that Al Qaeda might be winning in their 
second most important tactic, which is the propaganda war, and 
I am wondering, you know, as a general you know better than 
anyone that it is not just about destroying your enemy, it is 
about converting the observers and those country populations of 
that particular country so that you don't have to, to fight 
everybody. We have to somehow win this battle of ideals.
    And with that in mind, could you sort of elaborate on the 
importance of winning this anti-propaganda war with Al Qaeda 
and lay out some budgetary realities that may affect this 
effort and how do we sustain this in a post-2014 Afghanistan.
    General Keane. Thank you, Mr. Congressman.
    You know, the Al Qaeda declared war on us in the early 
1990s, and we sort of ignored it until 9/11 certainly, and we 
treated that kind of activity as criminal activity when it 
always was an act of war. I think the Israelis had this right, 
right from the beginning, but we have to draw back and look at 
Al Qaeda strategically.
    I mean, it is essentially a political movement. It has a 
fundamental ideology, and it uses religion as part of its 
belief system to educate and inform, motivate and inspire its 
members. And their near-term goals are to establish a caliphate 
in the region where Muslims live, to dominate and control that 
region. To be able to do that, their number one objective is to 
drive the United States out of the region, and they began in 
earnest of that in the 1990s with a series of attacks, and it 
culminated in 9/11. And I think what shocked them was the speed 
of which we came into Afghanistan to get rid of that sanctuary 
that they had.
    All that said, Al Qaeda has had to adjust, and they have 
adjusted. Remember, the--we have gone after central Al Qaeda 
leadership, but their intent was always to decentralize and to 
move into other countries, which is what you see happening as 
we speak, as Al Qaeda has reemerged in Iraq. And yes, we know 
how to defeat this movement from a military perspective. We did 
that in Iraq.
    The problem we have is we take a tactical approach to Al 
Qaeda. Tell me what is the comprehensive U.S. strategy to 
defeat Al Qaeda and radical Islam? We don't have it.
    Mr. Franks. That is right.
    General Keane. We don't even have a competent military 
strategy. A military strategy isn't the use of drones. That is 
a tactic, and we are using that tactic against the leadership 
of Al Qaeda central. But we have no comprehensive strategy in 
this nation, as a matter of policy, to deal with the defeat of 
a system that is spreading through the Middle East. That is our 
fundamental core problem.
    And not only that, we do a very poor job, and the previous 
administration is as guilty as this one, in not educating the 
American people properly on what is this movement, what are the 
tenets of it, what are their objectives, and what are we doing 
about it ourselves and what our strategy should be to deal with 
that.
    Mr. Franks. Well, General, I am in violent agreement with 
you, sir, and I think perhaps you ought to come out of 
retirement because we certainly need the voice of clarity that 
you so ably put forward here today.
    And with that, I am out of time. Thank you, sir.
    Mr. Wittman [presiding]. Thank you, Mr. Franks.
    We now go to Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Ms. Lockhart, I wanted to touch on a little bit more on 
what my colleague Ms. Tsongas was talking about in terms of 
Afghan women. Specifically, you know, I am thinking of the 
nature and structure of our presence post-2014 in terms of what 
are we doing to improve rural development, agricultural 
development, business development, education, all of those 
specific to women. I went on my very first trip, and I have had 
more senior Members tell me that the most dangerous person in 
Congress is a brand new freshman who went on their first CODEL 
[congressional delegation], and that was me, and so I am full 
of all these ideas.
    One of the things I heard from Afghan women time and again 
is that the infrastructure simply is not there, either 
administratively or actually physical infrastructure, so that a 
woman in a rural region cannot go to the local police or report 
a crime that has been committed against her, simply because 
there is not a barracks there for female police officers so 
that we can actually station female police officers in those 
regions. And so we are really disenfranchising the Afghan women 
and are not helping them do that.
    Can you speak a little bit to both the administrative and 
actual physical infrastructure, look at what we are doing post-
2014 for women?
    Ms. Lockhart. Certainly. And with a starting point, as I 
said in my testimony, that I think what we need to do for 
Afghan women is similar as to what we need to do for all Afghan 
citizens, which is the commitment to security.
    But having said that, I think I agree wholeheartedly with 
you, there is much, much more that can be done for women across 
the different sectors.
    I think women in politics is actually a good news story. 
The 25 percent seats that are reserved for women in parliament 
has meant that hundreds of women have served in positions of 
leadership in the Afghan parliament and in provincial councils, 
and this has been a tremendous step forward for the country. 
There has been some backsliding on this. The number has now 
gone down, but that is still there.
    Women in government has been something of a--an 
achievement. There are women in positions of senior leadership, 
women serving as ministers, but also in the bureaucracy, and of 
course, this did not happen pre-9/11. And then women serving as 
teachers, as health workers across the country and as 
beneficiaries of those services has been a tremendous advance 
over the last decade, but there is much more that can be done.
    In terms of the rural areas, there is a program, National 
Solidarity Program. It is a program that gives a block grant to 
now nearly every village in the country. Each village elects 
their own village council, the Community Development Council, 
and 100,000, well, more than 100,000 women now have served in 
positions of leadership on those village councils, so the 
infrastructure, that platform at the village level is there, 
and Congress has played a tremendously important role in 
ensuring support for that program, so I think that is one of 
the very concrete things that could continue.
    Women in the police force and the armed services, as you 
know, is a challenging issue. Recently, there have been very 
tragic assassinations of women police officers in Helmand and 
one in Kabul, so it is not--it is a position of high risk, but 
as you say, if there aren't women in the police force, women 
are not going to feel able to go to stations and report on 
crime. But I think going forward, it is women in politics, in 
administrative positions, in the armed services, and then the 
health, education, agriculture, and economic programs that are 
going to be critical. If, I think, men see that women can 
contribute to the household income, this does a lot to change 
the balance of power within the household and thus within the 
country.
    Ms. Duckworth. Thank you. I think I want to touch a little 
bit on the women in politics and in government. One of the 
things that was brought up by a woman parliamentarian to our 
group was the fact that there were not enough female poll 
station workers on election day so that when a woman went to 
the polling booth, she could not go in by herself because her 
husband or her brother or her father had to go in with her, 
unless there was a female poll worker who could then go with 
her, and that she truly could not independently vote.
    Are we looking towards the politics towards that portion of 
the work? Is there any attention being placed towards trying to 
get more female poll workers trained and then having them 
located more widespreadly across the nation?
    Ms. Lockhart. I believe there has been some activity there. 
I think a lot more--and as your colleague, Ms. Davis, raised 
also, to ensure that women can, to the extent possible, 
participate in the elections, both as candidates and the 
candidate protections in terms of security that may be 
required, and as voters, and it is instructive. In the 2004 
elections, a lot was done. The 2009 elections, this type of 
activity really fell through the cracks, and we all, I think, 
we saw Afghans really suffer the consequences of this. I think 
there is enough time between now and the elections in spring 
2014 that these type of actions and programs could be put in 
place if adequately resourced and paid attention to
    Ms. Duckworth. Thank you.
    I yield back, Mr. Chairman.
    Mr. Wittman. Thank you, Ms. Duckworth.
    I now go to Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    General Keane, on page 6 of your testimony, you list out 
the 20,000 troops that you think would be necessary to remain 
in Afghanistan. How long do you expect they would need to 
remain and does that include diplomatic security?
    General Keane. No, it would not include diplomatic 
security. The--I think how long they stay is condition based. I 
mean, clearly, as Afghan security forces increase in capability 
as they--and the trajectory is all positive, you pull back the 
number of advisors. And as the Afghan infrastructure begins to 
take hold, in other words, the development of what we call 
combat service support units, their logistics units and their 
medical units begin to take hold, and there are plans for all 
of this, you bring those forces down. So it is conditioned 
based on the advancement of the Afghan National Security Forces 
primarily.
    The counterterrorism mission, I would suggest, would 
probably stay the longest, and I think we are transitioning to 
a capable force that the Afghans are developing. They are not 
quite there.
    Mr. Scott. General, if I may, I am going to run out of time 
here. As you know, we are on a clock. Thanks for the answer
    All of these would be uniformed personnel. There are no 
contractors.
    General Keane. No. In those numbers, I have no contractors.
    Mr. Scott. Okay. Do you anticipate contractors being there 
as well?
    General Keane. Well, I would assume they would, because we 
use a lot of contractors now to protect our bases as opposed to 
putting, you know, fighters up on there, maintaining guard 
point and access control points and the like. We did that. We 
began that in Iraq, and we continued it here so we could put 
maximum boots out on the ground.
    Mr. Scott. Do you expect any other countries to maintain a 
significant presence in the country or just the United States?
    General Keane. Well, I would hope so. I mean, we have 
87,000 troops there now; 60,000 of the 87,000 are U.S., so 
obviously, there is international community presence. I would 
see them participating in this. I think they--they are going 
look at our commitment that it will help drive their numbers as 
well in terms of the resolve that we are demonstrating.
    Mr. Scott. Thank you for that answer. I guess one of--I 
have two primary questions with the U.S. and the investment 
that is going to occur over there going forward in money and 
potentially in lives. One is, as other countries are being 
brought in, China, for example, to develop the country, why 
should the United States taxpayer and the United States soldier 
provide the security and pay the price if other countries are 
going to be developing that nation?
    Shouldn't they play a role in the cost of the security in 
that nation as well? And that is one of--one of my serious 
concerns as we go forward.
    The other is that--and you alluded to this with regard to 
Iraq, we expected to have tens of thousands of troops there 
until the Iraqis refused to exempt our soldiers from being 
subject to their courts. And I was over there just before the 
withdrawal. And some of the comments made from the Iraqi 
leadership, well, we know we can't hold it without you, but we 
are not going to exempt you from our laws, so you have got a 
potential to run into that same system in Afghanistan where, 
you know--sir, I know what I was told, but it----
    Ambassador Neumann. Could I speak to that because I served 
at both Iraq and Afghanistan?
    Mr. Scott. Sure.
    Ambassador Neumann. And the moods were very different. I 
spent 16 months in Iraq before my reward was to go to Kabul, 
and I have been back quite a few times.
    At the best of times, the Iraqis never liked us being 
there, and I am generalizing, but even those who knew they 
needed us really, really didn't want us there. In Afghanistan, 
you have an over--still an overwhelming view that our presence 
is the last thing that stands between them and descending back 
into the nightmare that they have gone through for 30 years.
    Mr. Scott. Fair enough.
    Ambassador Neumann. I am utterly convinced that they--that 
we will not face the kind of issue we faced in Iraq of this 
being politically impossible for them to vote for the 
immunities that are necessary. We have a problem with President 
Karzai that I will leave for now, but that----
    Mr. Scott. Ambassador----
    Ambassador Neumann. That is one we will get past.
    Mr. Scott. I am out of time. I certainly respect your 
opinion. I know what I was told and as someone in both 
countries.
    And Ms. Flournoy.
    Ms. Flournoy. Sir, if I could, on your concern about the 
U.S. being the only country sort of shouldering the burden. 
Several billions of dollars have been committed to the future 
of Afghanistan post-2014 at the Tokyo conference, various 
international donor conferences. Yes, the U.S. has signed up to 
support some of that, but the vast majority of that 
international support is going to be non-U.S. So there are 
many, many other countries who are signed up to provide 
financial assistance and also troops if, in fact, we can 
negotiate the basis for a post-2014 mission. So I just wanted 
to reassure you on that point.
    Mr. Scott. Thank you for that answer, ma'am, and I know I 
am out of time. If I may, I know you obviously have a close 
relationship with the administration, but when the President 
came out with a zero option, I think it threw a lot of us for a 
loop. I think it threw this committee for a loop. I think it 
threw the soldiers for a loop, and maybe he was trying to send 
a message to President Karzai, but I think that message went to 
a lot of other people as well that were working toward a common 
goal, and I say that respectfully to you. So, thank you.
    I yield the remainder of my time.
    Mr. Wittman. Thank you, Mr. Scott.
    We now go to Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    And once again, I appreciate all of you in attendance here 
today. Your information and your opinions are very insightful 
to us.
    One of the things that most of you have said is reference 
to a clear policy from this administration as to where we are 
trying to go in Afghanistan, and more importantly, I think what 
we learned from this last debacle with Syria is, isn't it the 
President's responsibility to talk to the American public about 
where we expect to be and how we expect to get there, because 
as 2014 is closely approaching us, it is kind of hard to do it 
when you are in the midst of making a decision as to what our 
footprint is going to look like in Afghanistan and what we are 
supposed to accomplish. Do any of you have a clear indication 
that the President is willing to do that?
    Ms. Flournoy. Again, I am speaking as a private citizen and 
no longer as a member of the administration, but you know, I 
think the President has spoken about our strategy in 
Afghanistan a number of times, and I believe that, you know, 
there is a very good chance we are going to stay on that 
articulated path going forward. That is certainly my hope.
    I think as those decisions get flshed out this follows: He 
gets the recommendation from General Dunford; as decisions, as 
the BSA is concluded, as decisions are made, I fully expect 
that he will be talking to the American people about the 
longer-term future in Afghanistan and what the U.S. commitment 
is going to be.
    Mr. Nugent. Don't you think, though, that to preface that, 
you would actually be talking about today what you think 
Afghanistan could look like if things go correctly versus 
waiting until the military comes out, you know, Department of 
Defense comes out, Pentagon comes out in regards to the force 
structure because then you are trying to play catch up, I 
think. Is that it would be much easier when you--when that 
comes out to have articulated what you would hope to 
accomplish. You know what I am saying? It is sort of like 
having a game plan before you actually find out who your 
players are but at least you have a game plan as to how you are 
going to move forward or what you expect to move forward.
    Ms. Flournoy. Again, I think that this President has 
articulated a vision for the whole--you know, from the 
beginning of the Afghan strategy and his administration where 
we are trying to go with Afghanistan. I think re-articulating 
that in the context of these additional steps would also be 
important. It is also part of a broader counterterrorism 
strategy, and as someone who spent 3 years actually executing 
the strategy, there is a counterterrorism strategy. We can 
argue about whether it is, you know, a properly balanced 
resource, et cetera, but there is a clear strategy. This has 
actually been a strong suit for the administration, and I think 
the President's NDU [National Defense University] speech 
recently talked about how to put that on a more sustainable 
footing beyond just the kinetic piece, which is important, but 
really focused on building the partnership--the capacity of 
partners, including places, like Afghanistan, to deal with 
these threats going forward.
    Mr. Nugent. I appreciate your comment.
    Ambassador, what is your take? Have we articulated our 
positions strong enough to move forward to convince the 
American people as to what our course of action should be in 
Afghanistan?
    Ambassador Neumann. No. I would dearly like to see more of 
it. We have a range of statements to a range of audiences. We--
we are going to--if the President is serious about the policy 
that he has articulated, then he is going to have to lead it 
both with this body and with the American public, and I 
devoutly hope he will, but we are not there yet.
    Mr. Nugent. Well, and I think that is the point I am trying 
to drive through is I would like to see the President be much 
more passionate and articulate in regards to what he sees the 
end game is in Afghanistan based upon, you know, what we have 
done over the last 12 years.
    You know, I can remember back in, I think it was 2009 or 
2007, 2008 when ``Charlie Wilson's War'' came out and our older 
son was in Afghanistan for 15 months in combat, and I recall 
with my wife saying, you know, if we had only done just a 
little more, maybe our kid wouldn't be there risking his life, 
and so I am worried that we are heading down the same path.
    So, I appreciate all your comments, and General, I 
certainly do appreciate your leadership. Thank you.
    Mr. Wittman. Thank you, Mr. Nugent.
    I now go to Ranking Member Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    I want to follow up on that last train of thought because I 
really believe the President, without question, has had a very 
clear strategy on both combatting Al Qaeda and on Afghanistan. 
I have two caveats to that. The first of which is I do not 
think that he or his administration have done a very good job 
of explaining it or of building support for it, and you know, 
you talk about the American people. My own personal pet peeve 
is I don't think he has done a good job at all of explaining it 
to us, to Congress, or including us in it, and I think that has 
hamstrung this effort.
    But I think, without question, there has been a clear 
strategy. I will agree with the ambassador on Afghanistan is 
that, you know, I think a greater commitment to that strategy 
and a greater commitment to explaining it is necessary, but 
just in Al Qaeda, and there is a question at the end of this, 
but I think the strategy has been clear, and I agree with Ms. 
Flournoy that this has been a strength.
    I mean, number one, there are certain identifiable people 
within Al Qaeda that are plotting and planning attacks against 
us. That is priority number one. There is a whole lot of other 
stuff going on, but stopping them from hitting us has to be at 
the top of that list, and the best way to do that, quite 
frankly, is get them before they get us, and you know, I 
wouldn't dismiss drones quite so quickly. A drone is but a 
mechanism for taking, you know, for putting the policy in place 
of getting them before they get us.
    It was Afghanistan first, and then it was Pakistan, still 
Pakistan. Then Yemen came up, so we put together a very, you 
know, I think a robust plan to get them there, and I think that 
has been reasonably effective, so that has been number one.
    Number two, we can't simply leave Afghanistan to fall back 
into the hands. So, in 2009, the President committed the 
resources and committed to a new strategy to try to figure it 
out, and it is a mess. Don't get me wrong. It is not an easy 
problem to solve, but they actually committed the resources for 
the first time in 8 years to go in there and train the ANSF to, 
you know, try to give the Afghan government a chance to stand 
on its own, which ultimately it has to, and to accomplish that, 
we had to draw down on Iraq because the resources that were 
being spent in Iraq were simply not worth the benefit that we 
were getting from them, and they were consistently undermining 
some of these other missions.
    You know, the two final, I think, components to this have 
been, number one, we need to try to appeal to moderate Muslims. 
We try to fight the ideological war, counter the Taliban AQ [Al 
Qaeda] narrative, find moderate Muslims. Now, the biggest 
problem with that has been that they are not easy to find in 
terms of, you know, them actually articulating it. Thomas 
Friedman had a good column this weekend, I think, talking about 
how, you know, think about the fact that, in Syria, you have 
got jihadists coming from all over the Muslim world; people 
going there to help Al Qaeda. Where are the people from the 
Muslim world coming in to help the Free Syria movement, to help 
build a reasonable alternative? It is not there, and that is, I 
think, you know, part of the challenge. But the President has 
tried to articulate that message. It is a difficult message to 
deliver.
    Then the final piece of it is, work with the international 
community, because if we are going to focus on what I think is 
our greatest threat, and I think the President has articulated 
it that way, which is Al Qaeda and the threat they pose, we've 
got to figure out how to get along with China. We've got to 
figure out how to get along with Russia. You know, we've got to 
build those support. Again, that is not easy. They are not 
looking to get along with us, and I think there have been some 
missteps there. So I think it is just wrong--one of the things 
that has really frustrated me about both the drone issue and 
Afghanistan, is I consistently hear people say we don't know 
what we are doing; there is no strategy. And I am like, pay 
attention for 10 seconds. There is a strategy. You may disagree 
with how it is being implemented, but we absolutely know what 
we are doing in Afghanistan, much better than a lot of other 
places.
    Now, the final caveat that I will throw out there is the 
Arab Spring sort of threw a wrench in all this, and this is 
where the administration has got to get its stuff together. It 
is, you know, on Egypt, on Syria, on a bunch--on Libya. It has 
been kind of doing this, yeah, we are kind of doing that. You 
don't set policy in response to a reporter's question. Just as 
a general rule, I would say you shouldn't try and do that. So I 
think they need to better understand how to respond in Syria 
and elsewhere, and that is my question.
    How do we respond to the Arab Spring? Because I will cut 
the administration a little bit of slack, it is difficult. You 
want to support democratic values, but you also don't want to 
cast important countries into chaos because they can't handle 
democracy. On Egypt and the other, what would be the best 
response on Syria, on Egypt, on all these other places?
    General Keane. I will take a stab at it, but let me just 
say, you know, on your position on strategy. Killing Al Qaeda 
leaders doesn't defeat an Al Qaeda ideology or a movement.
    Mr. Smith. Agreed. That was the only piece of it----
    General Keane. Those leaders are replaced.
    Mr. Smith. Yes.
    General Keane. But that is our focus.
    Mr. Smith. But you still think we should be doing that, 
don't you?
    General Keane. Of course, we should be doing that.
    Mr. Smith. Okay.
    General Keane. We should always hold this horrific behavior 
liable.
    Mr. Smith. Stop it.
    General Keane. And we should use drones, but it is not a 
strategy is what I am suggesting.
    Mr. Smith. It is a piece of a strategy.
    General Keane. With an ideological movement like this, 
killing them actually will not defeat them.
    Mr. Smith. But again, though, are you suggesting that we 
don't?
    General Keane. Listen, I am all for killing them.
    Mr. Smith. Okay.
    General Keane. But what is going to defeat them is 
rejection of them by moderate Muslims. That is----
    Mr. Smith. Absolutely.
    General Keane [continuing]. What is--but our strategy 
should be fashioned around a long-term goal that will remove 
the conditions that permit Al Qaeda to thrive.
    Mr. Smith. Forgive me, but do you have some secret formula 
for accomplishing that because my position is that the 
President is trying to do precisely that. It is just that it is 
very, very difficult.
    General Keane. I don't hear it. I am glad that you hear it, 
but I don't hear it. Getting to the Arab Spring. The drivers of 
instability in the region have fermented and brought about the 
Arab Spring, the lack of political and social justice, the lack 
of economic opportunity, and I think the Arab Spring surprised 
most analysts and experts who deal with the Middle East. Not 
surprising, it began in the most repressive of the regimes.
    And the fact of the matter is, is that we cannot control 
the Arab Spring, nor should we try, but I do believe we should 
try to influence, and I do believe we should try to provide 
support. When millions of people are willing to stand up 
against a military machine in a brutal dictatorship like Assad 
has in Syria or a lesser one but nonetheless brutal in Libya, I 
do believe we should try to support that. I am not talking 
about military commitment. I am talking about providing moral 
support. I am talking about helping them solve the problem. 
They wanted weapons. They told us specifically what they 
wanted. I have listened to them speak to me about it. They 
said, We don't want your troops; we don't even want your 
airplanes; just help us with these weapons.
    Mr. Smith. I agree with you completely on that.
    General Keane. And 2 years later, we are now finally giving 
them something. I mean, something morally good was happening in 
Syria in terms of watching those people struggle against a 
mighty machine like he had and been willing to die in large 
numbers to deal with it. I am not suggesting that is enough 
motivation to commit us to war. It is not. But I do believe 
strategically Syria matters because of its relationship to Iran 
and the regional hegemony that Iran is trying to achieve there.
    Mr. Smith. And the larger ideological struggle that you 
described.
    General Keane. Absolutely.
    Mr. Smith. Very important.
    General Keane. I don't want to steal anybody's thunder.
    Mr. Smith. No, that is very helpful.
    Ms. Flournoy
    Ms. Flournoy. I certainly agree with the point that we 
cannot control the events that are unfolding on the ground. 
This is a history being rewritten, and the pen is in the hands 
of the people of the--in the region. But I do agree that we do 
have important and in some cases vital interests at stake. We 
do want to use our influence and all of our tools, from 
diplomacy to economic tools, to I think a more robust use of 
assistance to moderate elements of the opposition in Syria, to 
moderate elements elsewhere. We have to walk a line trying to 
support the long-term arc of reform, which will ultimately 
provide security in the region, with the need for some degree 
of stability on the way.
    And I think the most important thing I would focus on right 
now is trying to actually contain the Syrian civil war. I am 
very concerned about the overflow of instability into Iraq, 
Lebanon, potentially Jordan and other countries in the region.
    Mr. Smith. One of the things that we should have done I 
think a long time ago--but certainly, there is still time to do 
it--is a DOD [Department of Defense] train-and-equip mission.
    And people have said, Well, we don't know who is who? Look, 
if there are 10 people in Syria that are from the Free Syria 
movement that we think we can trust, well, start helping those 
10 and build from there. I think there are more than 10. There 
are not the tens of thousands that some have said, but there 
are hundreds and not thousands. They are our friends, and they 
are looking at us, saying, You are not doing anything for us. 
It can be small, but it has to be something. And it is 
something that I think DOD has got to be part of. It is 
something I will be working on.
    I am sorry, I don't want to take too much time. I want to 
give the other two a chance to say something.
    Ambassador Neumann. A couple of just quick comments. Syria, 
obviously, poses the problem that it has only lousy choices, 
but not making a decision is also a lousy choice.
    Mr. Smith. Even if there are only bad choices, there is 
still a best one.
    Ambassador Neumann. And there is the need to explain that, 
that takes a lot of explanation, because we don't like to deal 
in nuance. But I think one place we are not looking at enough, 
nearly enough is the one that Michele just raised and that is 
the consequences for the neighbors. If we cannot find a way 
that this is going to end and the stability of Jordan and 
Turkey--I would add Lebanon, but I think our resources are 
going to be much more----
    Mr. Smith. And I am not sure the word ``stability'' applies 
to Lebanon----
    Ambassador Neumann. Exactly.
    Jordan, we have the issue--particularly, it is a fragile 
state. It has a large nonnative population already with the 
Palestinians. That needs both a lot of economic support, but it 
needs thought about, how are you going to keep these people 
from bleeding into the rest of the economy as a destabilizing 
force? How are you going to keep them from becoming deeply 
resentful against us as well as others. There, there are 
policies that are possible, Turkey also, regional policies 
where I see a need for more articulation, thought, because 
ultimately, those things are going to cost money, which means 
coming back to you, gentlemen, and they are going to go on for 
a lengthy period of time. They are not going to be short-term 
fixes. And so if we are going--I say ``we'' as though I were 
still with the government and I am not. If there is going to be 
support for those kinds of thoughts and policies, then they 
need to be articulated, I believe, much more explicitly, 
beginning with you all--or to you all, I should say.
    Mr. Smith. Ms. Lockhart.
    Ms. Lockhart. I believe that the Arab Spring calls for a 
robust diplomacy tied to a security policy. I think too often 
we see diplomacy and security as alternatives and sometimes 
mutually exclusive. I think, like in Afghanistan and many 
countries across the Middle East, the street represents our 
best allies. It is the young men and women who came out in the 
thousands and sometimes in the millions who are asking for the 
very things that we stand for, economic opportunity, political 
inclusion and democracy. And this is really the time in this 
century to stand with them. It is going to require robust tools 
of economic and diplomatic assistance that are missing in 
action; perhaps not the business of this committee, but other 
committees.
    But I think we, from the security perspective, were 
suffering from the lack of investment in those tools. And this 
ties to your question of strategy for the defeat of Al Qaeda 
and extremism. It is ways to engage with citizens and the next 
generation that is going to provide the bulwark for stability.
    I agree with the ambassador on the question of Syria. We 
have focused too much on the risk of action and not enough on 
the risk of inaction, and what is now most likely that the 
conflict will continue to spiral out of control and spread and 
the consequences that this will have for the survival of the 
state system and the region as a whole for decades will be one 
for which we will pay a very heavy price.
    Mr. Smith. Thank you very much.
    Thank you, Mr. Chairman, appreciate your indulgence
    Mr. Wittman. Thank you very much, Ranking Member Smith, and 
I want to go ahead and thank our panelists for today.
    I do have a few questions as we close, and I want to focus 
on some of the logistical elements there. We know where we are 
right now as trying to move lots of things out, about 70,000 
vehicles, about 130,000 containers. We have seen the challenges 
with the opening and closing of the Pakistani ground line of 
communications. We also know the limitations of the northern 
distribution network. We also know historically, too, that this 
for the United States is the largest logistical movement of 
goods and equipment in our history, but we also see 
historically, you go back to 1842, when the British were 
leaving Afghanistan, of the 17,000 troops that they had, very 
few survived that effort to leave, and you saw how bloody the 
effort was for the Russians when they left. The concern is as 
we are pursuing this effort, not only to get our troops out, 
but also logistically to look at how we are going to get this 
done, I wanted to get the panelists' viewpoints on what do you 
see as the greatest challenges, what are the greatest risks and 
how do we manage those risks? I want to get your perspective on 
that.
    General Keane. Well, we have learned a lot in the last 20 
years or so with major logistical retrograde operations, as we 
like to refer to them as. In 1991, coming out of Kuwait and a 
portion of Iraq, it was a logistical nightmare, and we learned 
a lot from our mistakes. Leaving Iraq post-2010, 2011, was very 
much a success and a lot of effort has gone into that. The 
logistical planners who are working in Afghanistan to do this 
are building on all of the lessons that they have learned 
there. I think this operation, despite the formidable challenge 
it is to move that much equipment over that kind of terrain in 
a limited period of time, I think it is going to go much better 
than people expect it to be. And I don't believe that the 
Taliban is going to expend much effort in dealing with this. 
They are not going to focus on that. They are going to focus on 
controlling areas and where people are located and not on that 
logistical operation. For them to do that would take them away 
from what they believe is their center of gravity, and their 
resources have been expended rather considerably in the last 
few years.
    So I don't think it is going to be the security issue that 
people believe it will be. And I do think that, based on all 
the things we have learned in this, we are going to do this 
pretty good.
    Mr. Wittman. Very good. I know when I was visiting there, 
there was quite an effort going into the logistical workup to 
make this happen. Obviously, talking to the folks there, they 
realized what the limitations are.
    General Keane, do you believe that this can be accomplished 
by the focal point for us to be leaving Afghanistan, which is 
2014? Is that something that we can realistically accomplish by 
then, or will it continue after January of 2014?
    General Keane. I think some of it realistically will 
continue after. And so those will have to be taken and counted, 
the numbers that are still there. But there are enormously 
detailed plans on all of this, and we have got some real 
experts who know what they are doing in this area and they have 
been working on it now for 18 months. This has been detailed, 
strategic, operational, and tactical plans for some time to get 
this done. I am expecting it to go well.
    Mr. Wittman. Obviously, there is still a lot of discussion 
about what presence will be, both ISAF forces and U.S. forces 
as a part of that post-2014. Have we got any indication from 
our allies whether parts of our or any of our allies are 
willing to stay post-2014, is there a commitment there, Ms. 
Flournoy?
    Ms. Flournoy. Yes, I think both the Germans and Italians 
have indicated that they would be willing to continue in 
leadership roles in the north for the Germans and the west for 
the Italians and play an important role in those areas with 
other NATO allies and support. So I think they need to have a 
U.S. commitment in place, U.S. BSA in place, that then allows 
them to make their own commitments, understanding what kind of 
enablers we can provide to them and then negotiate their own 
SOFA [Status of Forces Agreement] with the Afghan government.
    Ambassador Neumann. If I can just add, the Canadians, while 
they are taking out their troops, are still at this point 
committed to retaining a police training presence, which is 
also an important piece of the security posture. The Brits are 
not--British are not fully clear at this point. But I think 
chances of keeping some--right now, the single biggest 
impediment to leading and getting an answer on that is our 
piece.
    I would note, on logistics, that since, by all accounts, 
somebody is going to be there--where this is not the Russian 
withdrawal over the bridge, and I do have an enormous respect 
for what we are doing in logistics--but I don't think we 
absolutely have to be in a panic or unnecessarily spend the 
taxpayers money to get everything out by the time the troops 
pull out. There is no really good reason why that process can't 
finish some time after, because we are not pulling out in our 
entirety. And if there are some cost savings that could be 
undertaken by being a little slower and more deliberate, I 
would be all in favor of it.
    Mr. Wittman. Let me ask you this, assuming we get a Status 
of Forces Agreement going forward for all those that would be 
involved post-2014, do you see that as an enduring mission, 
either for the United States or for ISAF, if there are partners 
there that continue in that operation?
    Ambassador Neumann. I see it as a long-term mission. I 
think some pieces of it, as General Keane was talking about, 
will come down fairly rapidly, particularly on the support for 
enablers. That is a comparatively short-term mission. Some of 
the training will be long term. NATO is already looking out to 
20--10-year vision and let me pass it to Michele.
    Ms. Flournoy. I think, at some point, when ANSF reaches a 
certain degree of self-sufficiency and mastery over its 
equipment and institutions and processes, I think you 
transition to a more normal security cooperation agreement, 
where you would have training, visits, exercises, security 
cooperation, foreign military sales. At some point, it would 
transition to a more normal sort of security, long-term 
security cooperation relationship.
    Mr. Wittman. Very good. Well, panelists, thank you so for 
joining us today, we appreciate you spending your time. It was 
very, very helpful to get your perspective. If there are no 
further questions, and considering there is nobody else here 
but me, there probably will not be, I hereby adjourn the House 
Armed Services Committee.
    [Whereupon, at 12:10 p.m., the committee was adjourned.]


=======================================================================




                            A P P E N D I X

                           September 19, 2013

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 19, 2013

=======================================================================



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 19, 2013

=======================================================================

      
                   QUESTIONS SUBMITTED BY MS. SPEIER

    Ms. Speier. A New York Times article this week highlighted a UN 
report on female police officers which found that about 90 percent of 
the policewomen interviewed described sexual harassment and sexual 
violence as a serious problem, and that about 70 percent of the 
policewomen said that they had personally experienced sexual harassment 
or sexual violence themselves. Do you believe that this horrific 
problem will get better or worse after 2014?
    Ms. Flournoy. Any incidence of sexual harassment or sexual violence 
within the Afghan police force is cause for great concern and must be 
addressed by the Ministry of Interior as an urgent priority. Whether or 
not this problem improves or worsens after 2014 may depend, in part, on 
the extent to which some international forces remain in the country as 
trainers, advisors and mentors to Afghan police forces. The presence of 
international advisors can help to teach and uphold international 
standards of conduct and to ensure that incidents of sexual harassment 
or violence are reported and investigated, and that those responsible 
are held accountable.
    Ms. Speier. It says a lot about who the Afghani government is 
negotiating with, that taking away women's rights is a high valued 
bargaining chip. Do you have the expectation that once our presence in 
Afghanistan diminishes, the Taliban's presence and power will increase? 
Do you believe that this won't precipitate a serious erosion of the 
rights gained by women?
    Ms. Flournoy. If the United States and the international community 
do not provide an adequate post-2014 presence to continue advising, 
assisting and supporting the Afghan National Security Forces in holding 
their ground and protecting the population, there is a significant risk 
that the Taliban-led insurgency will regain previously lost territory 
and influence, particularly in the South and East. In areas where 
Taliban regains dominance, the rights of women would likely be 
endangered. This would be a serious reversal of progress for women's 
education, health, and ability to participate in the Afghan economy and 
politics. The best way to prevent this from occurring is to ensure that 
the United States and the international community provide an adequate 
post-2014 presence to help the ANSF continue to develop and secure the 
population nationwide.
    Ms. Speier. A New York Times article this week highlighted a UN 
report on female police officers which found that about 90 percent of 
the policewomen interviewed described sexual harassment and sexual 
violence as a serious problem, and that about 70 percent of the 
policewomen said that they had personally experienced sexual harassment 
or sexual violence themselves. Do you believe that this horrific 
problem will get better or worse after 2014?
    General Keane. [The information was not available at the time of 
printing.]
    Ms. Speier. It says a lot about who the Afghani government is 
negotiating with, that taking away women's rights is a high valued 
bargaining chip. Do you have the expectation that once our presence in 
Afghanistan diminishes, the Taliban's presence and power will increase? 
Do you believe that this won't precipitate a serious erosion of the 
rights gained by women?
    General Keane. [The information was not available at the time of 
printing.]
    Ms. Speier. A New York Times article this week highlighted a UN 
report on female police officers which found that about 90 percent of 
the policewomen interviewed described sexual harassment and sexual 
violence as a serious problem, and that about 70 percent of the 
policewomen said that they had personally experienced sexual harassment 
or sexual violence themselves. Do you believe that this horrific 
problem will get better or worse after 2014?
    Ambassador Neumann. Equal rights for women in Afghanistan still 
face many social pressures although there is certainly a growing 
understanding of the need for equal rights and protections for women. I 
expect these strains and pressures to continue after 2014. To the 
extent that the Afghan Ministries of Defense and Interior face serious 
financial pressure as our aid declines there is the potential for the 
problems you describe to get worse as they believe they have to shift 
funding to immediate combat requirements. Therefore, we should be 
careful to maintain both general support levels for the Afghan security 
forces as well as funding for programs to develop training for women 
and broader education about the need for women in the security forces.
    Ms. Speier. It says a lot about who the Afghani government is 
negotiating with, that taking away women's rights is a high valued 
bargaining chip. Do you have the expectation that once our presence in 
Afghanistan diminishes, the Taliban's presence and power will increase? 
Do you believe that this won't precipitate a serious erosion of the 
rights gained by women?
    Ambassador Neumann. Overall the Afghan Army is fighting well and 
taking a very high number of casualties as a result. However, there are 
areas they do not control and these may get more numerous. If Taliban 
power increases the condition of women will almost certainly get worse. 
I think this is far less a concern about what the Afghan government 
will give away in negotiations, in part because they understand the 
negative effect on foreign support, and much more about whether the 
Afghan forces will be able to hold their own militarily. If we want to 
keep Taliban power from increasing, with all that implies for women 
particularly and for the development of a more tolerant society 
generally, then we must maintain our support for Afghanistan in the 
years after 2014. It is also important to understand the 
interrelationship between fighting and negotiating. The worse the 
military situation the more desperate the Afghan government will be and 
the stronger the Taliban hand in negotiations. On the other hand, the 
more it becomes clear that the Afghan forces will not lose the more 
incentive the Taliban will have to reach a reasonable agreement without 
excessive demands, including those which would imperil the status of 
women. The Taliban is already showing some sensitivity to this in their 
public statements but statements are not necessarily the reality of 
what they would actually negotiate. The military balance, and hence the 
need for our assistance, are a critical part of the picture.
    Ms. Speier. A New York Times article this week highlighted a UN 
report on female police officers which found that about 90 percent of 
the policewomen interviewed described sexual harassment and sexual 
violence as a serious problem, and that about 70 percent of the 
policewomen said that they had personally experienced sexual harassment 
or sexual violence themselves. Do you believe that this horrific 
problem will get better or worse after 2014?
    Ms. Lockhart. As the UN report (as reported by the New York Times 
article, ``Afghan Policewomen Say Sexual Harassment Is Rife'', 
September 16, 2013, highlights, the incidence of sexual violence and 
harassment is indeed a tragic and critical issue for women in 
Afghanistan.
    Sadly, it is possible that this problem will get worse after 2014, 
especially if those segments of society who are opposed to women's 
rights and protections are emboldened. The ISAF and international 
presence in my view played a strong role in advancing the status and 
role of women in society in general and professional positions in 
particular, and enhancing protections for women.
    It would be sensible to look at the post-2014 period in terms of 
different scenarios. There is sadly one scenario where violence and 
conflict in general spiral, as a consequence of an emboldened 
insurgency, actions of neighbors, and/or failure of the political 
process to result in a smooth transfer of power to a broadly accepted 
and legitimate authority. There are also other scenarios, including 
where the constitutional order increasingly takes root, and while 
violence and conflict continue, a broadly accepted election outcome 
results in a leadership team able to build consensus on Afghanistan's 
future trajectory. There are strong signs that a new generation, 
increasingly urbanized and integrated with global networks, is coming 
of age and impacting societal transformations (see for example the work 
of Alliance in Support of the Afghan People, www.afghanalliance.org for 
documentation of these evolving trends). If there is a sufficient 
security bridge to give this generation time to grow into leadership 
positions across government, business and society.
    Some measures can be taken to mitigate the incidence of violence 
against women, including continued international force and civilian 
presence in partnership with Afghan forces and the Government to 
counter extremist and militia elements; building training and awareness 
measures as well as sanctions into training and management procedures 
for the army and police; and supporting those organizations and 
procedures designed to protect women including the Human Rights 
Commission, and specialized police units focused on protection of women 
in general as well as domestic violence in particular.
    Ms. Speier. It says a lot about who the Afghani government is 
negotiating with, that taking away women's rights is a high valued 
bargaining chip. Do you have the expectation that once our presence in 
Afghanistan diminishes, the Taliban's presence and power will increase? 
Do you believe that this won't precipitate a serious erosion of the 
rights gained by women?
    Ms. Lockhart. If the power of the Taliban and other groups within 
Afghanistan opposed to the enfranchisement of women in politics, 
government, the economy and society grows, it is certain that the 
rights gained by women will be seriously at risk. This fear is well 
documented by a number of surveys and reports investigating the status 
of and prospects for women. The issue, as reported by women's and 
citizens' groups, is extremist and conservative forces in general and 
not those specific to the Taliban.
    The question of whether the Taliban's presence and power will 
increase will depend on what scenario develops post 2014, which in turn 
depends in large measure on the commitments made and actions taken by 
the United States Government in the coming weeks and months, as 
different scenarios unfold. In my view, the scenarios that might unfold 
are: first, a scenario where the fragile gains are eroded by an erosion 
of trust and confidence of citizens in the political order, increasing 
hedging behavior by key factions who align behind militias and 
insurgent groups, leading to an exacerbation of conflict and a growth 
of extremist elements in politics and society. This scenario is most 
likely to develop should the commitment of the U.S. especially in the 
form of a sufficiently robust continued presence and continued 
commitment to the ANSF not materialize or remain in question. Second, a 
scenario of continued consolidation of the constitutional order, with a 
successful transfer of power to a broadly legitimate government in 
spring 2014 is possible. This is most likely to materialize should 
commitment of the U.S. to the post 14 era be resolute and have the 
confidence of the Afghan citizenry. A third scenario is possible of 
continued insecurity and conflict but where the center holds together; 
one can imagine this scenario unfolding with limited commitment of the 
US, an acceptable although imperfect election, and continued 
interference by neighbors.
    In the first and third of these, growth of extremist groups and 
erosion of women's rights are likely. To minimize this risk, a U.S. 
commitment to an enduring presence and financial support to the 
essential functions of the state including the ANSF, in line with 
commitments already made in the Strategic Partnership Agreement and at 
Chicago, is critical. Additionally, the U.S. should focus its 
diplomatic efforts to bolstering the moderate middle rather than at the 
extremes, by focusing on supporting free and fair elections; the 
formation of an inclusive and acceptable government and Parliament; and 
supporting the next generation of leaders and managers who are now 
coming of age. The U.S. should focus its economic interventions on 
those elements which will increase domestic revenue collection, so that 
Afghanistan can underwrite its own costs. With this set of policies, 
Afghanistan will stand a fair chance of maintaining the gains that have 
been made.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
